<html>
<title> - H.R. 1071, THE NATIONAL SEA GRANT COLLEGE PROGRAM ACT; AND A DISCUSSION DRAFT KNOWN AS THE ``NATIONAL SEA GRANT COLLEGE PROGRAM ACT AMENDMENTS OF 2001''</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
     H.R. 1071, THE NATIONAL SEA GRANT COLLEGE PROGRAM ACT; AND A 
DISCUSSION DRAFT KNOWN AS THE ``NATIONAL SEA GRANT COLLEGE PROGRAM ACT 
                         AMENDMENTS OF 2001''
=======================================================================

                                HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            November 8, 2001

                               __________

                           Serial No. 107-74

                               __________

           Printed for the use of the Committee on Resources






 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov
                         COMMITTEE ON RESOURCES

                               ________

                           U.S. GOVERNMENT PRINTING OFFICE
76-036                         WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001










                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                   Allen D. Freemyer, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
                  Jeff Petrich, Democrat Chief Counsel
                                 ------                                

       SUBCOMMITTE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
           ROBERT A. UNDERWOOD, Guam, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. ``Billy'' Tauzin, Louisiana         Samoa
Jim Saxton, New Jersey,              Neil Abercrombie, Hawaii
  Vice Chairman                      Solomon P. Ortiz, Texas
Richard W. Pombo, California         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North 
    Carolina
                                 ------                                




















                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on November 8, 2001.................................     1

Statement of Members:
    Faleomavaega, Hon. Eni F.H., a Delegate to Congress from 
      American Samoa.............................................     5
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland......................................     1
        Prepared statement of....................................     2
    Underwood, Hon. Robert A., a Delegate to Congress from Guam..     3
        Prepared statement of....................................     4
        PAIRS communique submitted for the record................    62

Statement of Witnesses:
    Dalton, Penelope, Vice President, Consortium for 
      Oceanographic Research and Education.......................    22
        Prepared statement of....................................    24
    DeVoe, M. Richard, President, Sea Grant Association..........    41
        Prepared statement of....................................    43
    Evans, Dr. David L., Assistant Administrator, Office of 
      Oceanic and Atmospheric Research, National Oceanic and 
      Atmospheric Administration, U.S. Department of Commerce....     7
        Prepared statement of....................................    10
    Knatz, Dr. Geraldine, Chairman, Sea Grant Review Panel.......    15
        Prepared statement of....................................    17
    Richmond, Dr. Robert, Professor of Marine Biology, Marine 
      Laboratory, University of Guam.............................    27
        Prepared statement of....................................    29
















HEARING ON H.R. 1071, THE NATIONAL SEA GRANT COLLEGE PROGRAM ACT; AND A 
DISCUSSION DRAFT KNOWN AS THE ``NATIONAL SEA GRANT COLLEGE PROGRAM ACT 
                          AMENDMENTS OF 2001''

                              ----------                              


                       Thursday, November 8, 2001

                     U.S. House of Representatives

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 12:36 p.m., in 
Room 1324, Longworth House Office Building, Hon. Wayne T. 
Gilchrest [Chairman of the Subcommittee] presiding.

 STATEMENT OF THE HON. WAYNE T. GILCHREST, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. The Committee will come to order.
    Good morning, everyone. We appreciate your attendance here 
this morning. Some of you came from near, and some of you came 
from afar--really afar--so welcome to the Committee this 
morning to the hearing.
    The National Sea Grant Program, generally known as Sea 
Grant, was established in 1996 to improve marine resource 
conservation, management, and utilization. The program is 
patterned after the Land Grant College Program, which was 
created in 1862. Sadly, it only receives a tiny fraction of the 
funds received by Land Grant colleges.
    Currently, there are 29 Sea Grant college programs that 
represent a network of researchers, educators, and marine 
advisory agents at over 300 academic institutions.
    Sea Grant research must be relevant to the understanding, 
assessment, development, utilization or conservation of ocean, 
coastal, and Great Lakes resources. Sea Grant education 
programs include the development and training programs for 
marine scientists and technicians, as well as education in 
aquatic sciences for secondary school students and teachers.
    Sea Grant marine advisory staff, the marine version of 
agriculture extension agents, provide informal education for 
the general public, technical advice, and instruction in 
marine-related topics, and disseminate research findings to 
user groups.
    In addition to the core program of research, education, and 
outreach, Sea Grant also has ongoing research programs in 
dealing with oyster diseases and the human health effects of 
oyster-borne diseases and on zebra mussels.
    I am particularly interested in hearing about the progress 
made in the oyster disease research program.
    Our colleague from American Samoa, Congressman 
Faleomavaega, has introduced H.R. 1071, the National Sea Grant 
College Program Authorization Enhancement Act. I want to 
compliment him for all of his hard work on behalf of this 
legislation.
    In addition, the Subcommittee has provided a draft 
reauthorization proposal, and I look forward to hearing your 
comments as we move through the coming weeks and months about 
that proposal.
    We also look forward this morning to your testimony.
    And as we move through the coming months and years with a 
better understanding of a cooperative international association 
with peoples from around the world to deal with desperate 
sufferings and poverty and misinformation and ignorance and 
arrogance and dogma and intolerance--all of which seems to be 
fertile ground for the tiny fraction of people in the world 
that are afflicted with madness to cause harm to others--if I 
can be so bold as to take a leap, I am assuming and hopeful 
that the positive effect of all that--getting together in a 
cooperative fashion with the international community to make 
the world a better place--will also begin to increase our 
recognition of the planet's sensitive natural resources and 
sensitive ecosystems, so that the cooperation can go far beyond 
the hearing room or a few research facilities to a better 
understanding of mankind that we are on an oasis in the midst 
of a rather large and barren universe.
    And as the population increases and our resources decrease, 
the ability to deal with many other situations will become 
increasingly more difficult.
    So I look forward to the testimony from all of you on the 
importance that Sea Grant plays in that rather enormous puzzle.
    [The prepared statement of Mr. Gilchrest follows:]

 Statement of Hon. Wayne Gilchrest, a Representative in Congress from 
                         the State of Maryland

    The National Sea Grant College Program, generally known as Sea 
Grant, was established in 1966 to improve marine resource conservation, 
management, and utilization. The program is patterned after the Land 
Grant College Program, which was created in 1862. Sadly, it only 
receives a tiny fraction of the funds received by land grant colleges. 
Currently, there are 29 Sea Grant College programs that represent a 
network of researchers, educators and marine advisory agents at over 
300 academic institutions.
    Sea Grant research must be relevant to the understanding, 
assessment, development, utilization or conservation of ocean, coastal, 
and Great Lakes resources. Sea Grant education programs include the 
development and training programs for marine scientists and technicians 
as well as education in aquatic sciences for secondary school students 
and teachers. Sea Grant marine advisory staff, the marine version of 
agriculture extension agents, provide informal education for the 
general public, technical advice and instruction in marine-related 
topics, and disseminate research findings to user groups.
    In addition to the core program of research, education and 
outreach, Sea Grant has also has ongoing research programs in dealing 
with oyster diseases and the human health effects of oyster borne 
diseases, and on zebra mussels. I am particularly interested in hearing 
about the progress made in the oyster disease research program.
    Our colleague from American Samoa, Congressman Faleomavaega has 
introduced H.R. 1071, the National Sea Grant College Program 
Authorization Enhancement Act, and I want to compliment him for all of 
his hard work on behalf of this legislation. In addition, the 
subcommittee has provided a draft reauthorization proposal. I look 
forward to the witnesses comments on these measures, and I appreciate 
your coming today.
                                 ______
                                 
    Mr. Gilchrest. I would now like to yield to my good friend 
from Guam, and colleague, Mr. Underwood.

   STATEMENT OF THE HON. ROBERT A. UNDERWOOD, A DELEGATE IN 
              CONGRESS FROM THE TERRITORY OF GUAM

    Mr. Underwood. Thank you, Mr. Chairman. And thank you for 
those very sobering words.
    And as well, I want to express my relief that we are back 
in Longworth. It is good to be back in Longworth.
    Mr. Gilchrest. I really didn't think in those terms, that 
I'm actually back in Longworth.
    Mr. Underwood. That's right. We are back in Longworth.
    I never thought I would say that.
    [Laughter.]
    Mr. Underwood. Thank you, Mr. Chairman. And good morning to 
everyone. And I regret that circumstances have forced the 
postponement of this hearing from October 18th until today.
    And I realize that this was a significant inconvenience for 
the invited witnesses, and I very much appreciate that you have 
all been able to make yourselves available to attend on such 
short notice, especially my friend and longtime colleague from 
the University of Guam, Dr. Robert Richmond. And my thanks to 
all of you.
    And also, I would like to recognize, if you would allow me, 
Mr. Chairman, the Lieutenant Governor of Guam; Madeleine 
Bordallo is here, as well as Paul Bordallo.
    It never fails to amaze me that the National Sea Grant 
College Program has yet to catch the public's attention or the 
attention of Congress, for that matter, in a way that is 
comparable to the success of our Nation's Land Grant 
institutions.
    This fact is made even more surprising considering that 
since 1966 the migration of people, industry, and commerce away 
from the Nation's heartland to the Nation's coasts, which in a 
sense have become the Nation's new heartland, has become even 
more dramatic with each succeeding decade.
    The need for a program like Sea Grant has never been 
greater, yet we all still seem to be waiting for the demand to 
coalesce.
    As a former academic administrator, I appreciate the 
benefits that can be realized through the partnerships and 
Federal matching funds provided through the Sea Grant Program.
    For these reasons and because of the obviously intrinsic 
economic and cultural dependence on marine resources in Guam, I 
certainly support the efforts of Dr. Bob Richmond and his 
colleagues, who are working cooperatively with NOAA to develop 
a Sea Grant program for the Western Pacific region. I will be 
interested to hear how work has progressed on this proposal, 
and I will be asking for a show of hands of support for this 
proposal later on.
    [Laughter.]
    I will also be interested to hear the views of today's 
witnesses, especially their perspectives on future funding 
levels for Sea Grant.
    In this respect, I certainly want to thank my friend from 
American Samoa, our colleague Mr. Faleomavaega, for his 
leadership in introducing legislation that would significantly 
increase authorizations for Sea Grant appropriations to $100 
million per year.
    While certainly this figure would be a substantial 
increase, it still appears reasonable, considering that 
comparable Land Grant institutions will receive over $1 billion 
in fiscal year 2002.
    Of course, the events of September 11th will make it 
extremely difficult to find any new funding in discretionary 
accounts. Nevertheless, the Sea Grant program is worthy of 
additional support, and it will be the responsibility of this 
Committee to step up to that challenge.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Underwood follows:]

  Statement of the Hon. Robert Underwood, a Delegate to Congress from 
                                  Guam

    Thank you, Mr. Chairman, and good morning to everyone. I regret 
that circumstances forced the postponement of this hearing from October 
18 until today. I realize that this was a significant inconvenience for 
our invited witnesses. I very much appreciate that you have all been 
able to make yourselves available to attend on such short notice, 
especially my friend and colleague from Guam, Dr. Robert Richmond. My 
thanks to you all.
    It never fails to amaze me that the National Sea Grant College 
Program has yet to catch the public's attention--or the attention of 
Congress for that matter--in a way comparable to the success of our 
Nation's land grant institutions. This fact is made even more 
surprising considering that since 1966, the migration of people, 
industry and commerce away from the Nation's heartland and to the 
Nation's coasts has become ever more dramatic with each succeeding 
decade. The need for a program like Sea Grant has never been greater, 
yet we all still seem to be waiting for the demand to coalesce.
    As a former academic administrator, I appreciate the benefits that 
can be realized through the partnerships and Federal matching funds 
provided through the Sea Grant Program. For these reasons, and because 
of the obvious intrinsic economic and cultural dependence on marine 
resources in Guam, I support the efforts of Dr. Robert Richmond and his 
colleagues who are working cooperatively with NOAA to develop a Sea 
Grant Program for the Western Pacific region. I will be interested to 
hear how work has progressed on this proposal.
    I will also be interested to hear the views of today's witnesses, 
especially their perspectives on future funding levels for Sea Grant. 
In this respect, I want to thank my friend from American Samoa, Mr. 
Faleomavaega, for his leadership in introducing legislation that would 
significantly increase authorizations for Sea Grant appropriations to 
$100 million per year. While certainly this figure would be a 
substantial increase, it still appears reasonable considering that 
comparable land grant institutions will receive over $1 billion dollars 
in Fiscal Year 2002!
    Of course, the events of September 11 will make it extremely 
difficult to find any new funding in discretionary accounts. 
Nevertheless, the Sea Grant Program is worthy of additional support, 
and it will be the responsibility of this committee to step up to that 
challenge.
    Thank you.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Underwood.
    Mr. Faleomavaega?

  STATEMENT OF THE HON. ENI F.H. FALEOMAVAEGA, A DELEGATE IN 
         CONGRESS FROM THE TERRITORY OF AMERICAN SAMOA

    Mr. Faleomavaega. Thank you, Mr. Chairman.
    I certainly would like to offer my personal welcome to our 
distinguished Lieutenant Governor from the territory of Guam, 
Madeleine Bordallo, and Senator Bordallo, who is also with us 
here in our hearing this morning.
    Mr. Chairman, I would be remiss if I did not extend my 
appreciation to you and our ranking member in our Subcommittee. 
I would rather call this piece of legislation as your bill, 
because this has not been something that was just done 
overnight. This has been a period of consultations with you and 
our ranking member, Mr. Underwood, for the past several months.
    In my capacity formerly as ranking member of this 
Subcommittee 2 years ago, I had come to the strong conclusion 
that something has to be about the Sea Grant program. And I 
want to thank you and our ranking member, Mr. Underwood, for 
your support and especially your leadership in taking the 
initiative, not only by calling the hearing, by calling the 
first shot, extending this hopefully greater matter of 
knowledge and understanding to our colleagues, why this program 
is so important. And not just because we are from the islands. 
I think that, given the fact that the coastal states here in 
our own Nation--or even the Great Lakes, I would consider them 
as part of our coastal programs.
    But, Mr. Chairman, I definitely want to thank you, given 
the fact that we have already had 50 cosponsors of this 
legislation. And passing this sense of threshold, I suppose you 
might say that hopefully there will be more of our colleagues 
supporting this legislation, on both sides of the aisle.
    And I certainly want to commend you, Mr. Chairman, 
certainly as one of our most distinguished conservationists and 
environmentalists serving this Committee.
    Mr. Chairman, the idea of a Sea Grant program was 
originally suggested by Mr. Athelstan Spilhaus. In was in a 
1964 editorial that he wrote, and I quote: ``The establishment 
of the Land Grant colleges was one of the best investments this 
Nation has ever made. The same kind of imagination and 
foresight should be applied to exploitation of the sea.''
    Mr. Chairman, the National Sea Grant College Program has 
always enjoyed a broad base of bipartisan support. The 105th 
Congress passed reauthorization for the program without a 
single dissenting vote in either chamber.
    However, despite this broad support, current funding for 
the program is only about 7 percent of the equivalent of 
Federal funding for the Land Grant College Program. Land Grant 
receives approximately $900 million in Federal funding per 
year; Sea Grant receives approximately $62 million. Yet, 
approximately 54 percent of our Nation's population lives along 
our coasts.
    I believe this is a fact that bears repeating: Nearly 54 
percent of our Nation's population lives along the coasts, but 
we devote only pennies to marine research.
    In 1994, a National Research Council review pointed out 
that Sea Grant has been virtually the only source of funding in 
the U.S. for marine policy research. Yet, on average, there are 
fewer than seven extension agents per coastal state. In many 
cases, there is only one extension agent serving a major urban 
area.
    For example, in Los Angeles, there is only one extension 
agent serving 14 million people. In New York City, there is 
only one serving 12 million people.
    Due to limited resources, Sea Grant funds at an average 
less than $2 million per state program. Many geographic regions 
are not represented, including the Western Pacific--for which 
my colleague Mr. Underwood has eloquently elaborated upon and 
on which both us definitely are going to be working toward, 
too--which alone has a huge economic exclusive zone. Some 
states, like Mississippi and Alabama, share funding while other 
eligible states, like Pennsylvania and Vermont, have no 
institutional Sea Grant programs.
    To address the problem of inadequate funding, I 
introduced--and as a matter of fact, Mr. Chairman, I would 
rather call it ``as you introduced''--H.R. 1071, a bill which 
would increase authorization for funding of the National Sea 
Grant College Program to $100 million per year.
    Although this modest increase will not provide sufficient 
research for what needs to be done, I believe it is a movement 
in the right direction.
    I am pleased to see that a draft reauthorization bill under 
review also provides a significant increase in authorization.
    In addition to the limited funding, questions have also 
been raised about how the program could be better structured to 
improve efficiency. I believe there are some adjustments that 
we can make in this area, and I look forward to hearing the 
testimonies of today's witnesses.
    Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Faleomavaega, for those 
interesting facts that we will pay close attention to as we go 
through the reauthorization process.
    Very often we can probably reauthorize some of these acts 
via the telephone and the staff. But it is always beneficial--
and I hope you take this into your perspective while we are 
here this morning--that it is that exchange of information and 
the phenomenon that occurs when people talk to each other in 
the same room, that every once in a while some little spark 
will ignite some idea that will turn into a major opportunity.
    So we are looking for sparks from each one of you this 
morning as we go through the testimony.
    [Laughter.]
    This morning we have Dr. David Evans, assistant 
administrator, National Oceanic and Atmospheric Administration, 
U.S. Department of Commerce; Dr. Geraldine Knatz, Chairman, Sea 
Grant Review Panel; Ms. Penelope Dalton, formerly with National 
Marine Fisheries Service, now with the Consortium for 
Oceanographic Research and Education as its vice president and 
technical director; Dr. Robert Richmond, professor of marine 
biology--who wins the prize for the longest distance traveled 
to get here--the University of Guam--welcome; and Dr. Richard 
DeVoe, president of the Sea Grant Association.
    Welcome all this morning. We will begin with Dr. Evans.

 STATEMENT OF DAVID EVANS, ASSISTANT ADMINISTRATOR FOR OCEANIC 
  AND ATMOSPHERIC RESEARCH, NATIONAL OCEANIC AND ATMOSPHERIC 
          ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE

    Dr. Evans. Good morning, Mr. Chairman, members of the 
Subcommittee. I am David Evans, assistant administrator of NOAA 
for Oceanic and Atmospheric Research.
    Thank you very much for inviting NOAA to speak on behalf of 
the National Sea Grant College Program this morning, a 
partnership between the Nation's universities and NOAA that 
began in 1966.
    And let me note that I have submitted written testimony and 
ask that that be part of the record. I will just have a short 
summary here.
    Mr. Gilchrest. Without objection.
    Dr. Evans. The Sea Grant Program is made up of 32 grant 
colleges, located in coastal and Great Lakes States and Puerto 
Rico, that use the skills and resources of several hundred U.S. 
universities and scientific institutions to conduct marine 
research, education, and outreach activities.
    I have been asked to provide NOAA's views on two pieces of 
proposed legislation, H.R. 1071, the National Sea Grant College 
Program Authorization Act, and a draft reauthorization bill 
entitled National Sea Grant College Program Act Amendments of 
2001.
    Unfortunately, the administration has not completed its 
formal review of either reauthorization bill right now. But in 
the spirit of your comments a few minutes ago, we very much 
look forward to working with you and with your staff as the 
reauthorization process proceeds and working on both of those 
bills in a way that is consistent with the administration's 
budgetary constraints, which you have also noted, and the 
policy goals that we have.
    We also recognize the importance of the role that past 
Congresses have played in enacting the Sea Grant act to begin 
with and in subsequent reauthorizations. Furthermore, the 
administration is pleased that Congress has recognized the 
importance to the U.S. of sustainable coasts and continues to 
have confidence in Sea Grant as a part of that vision.
    I would like to highlight today some of the accomplishments 
of the Sea Grant program and emphasize the critical role that 
it plays in fostering Federal-state partnerships for marine and 
coastal research and resource management.
    Sea Grant is based on the concept of establishing a marine 
version of Land Grant colleges, which played a key role in the 
development of modern agriculture.
    The Nation's experience with Land Grant colleges 
demonstrated that research, education, and the ability to 
transfer that new knowledge into public policy and economic 
gains are rapidly becoming the key to sustainable development 
and prosperity.
    Similarly, the 32 Sea Grant college programs bring 
research, outreach, and educational expertise to promote the 
sustainable development of the Nation's marine and coastal 
resources. Sea Grant is responsible for providing information 
to coastal and marine users on relevant research results that 
may have beneficial applications for many marine and coastal 
enterprises.
    For example, protective mesh for clams developed by Sea 
Grant research in the early 1990's has resulted, in less than a 
decade, in an increased yield in value today of about $40 
million per year in the New England clam industry.
    Sea Grant is constantly working to improve its 
effectiveness. Innovations introduced by Sea Grant Director Ron 
Baird, who is with me here today, include an increasing local 
responsibility for decision-making; institutionalizing a system 
of rigorous peer-review programs, with an emphasis on research 
outcomes; streamlining the management infrastructure. These 
reforms have substantially strengthened Sea Grant programs 
nationwide.
    A recent example of Sea Grant's improved ability to respond 
is with a coordinated effort in a Long Island Sound Lobster 
Initiative. Sea Grant programs in the Northeast, working with 
States, other parts of NOAA, local users, and the Congress, 
were able to quickly mount an assessment, monitoring, and 
research program to address a pressing regional issue of 
significant economic importance.
    Another recent management reform is the introduction of 
national strategic investments.
    Mr. Gilchrest. If I could just interrupt for a quick 
second?
    Dr. Evans. Yes.
    Mr. Gilchrest. We are not having the lights today.
    Dr. Evans. Okay.
    Mr. Gilchrest. You can--
    Dr. Evans. Slow down a little?
    Mr. Gilchrest. Yes.
    [Laughter.]
    Dr. Evans. Thank you.
    You know, I have been too well-trained in this process.
    [Laughter.]
    You know, five pages, 5 minutes, keep going, don't breathe, 
right?
    [Laughter.]
    Thank you, Mr. Chairman.
    Sea Grant programs in non-indigenous species, fish habitat, 
marine biotechnology, oyster disease and mariculture are 
examples of those kinds of national strategic investments that 
have been made.
    Next year, Sea Grant will establish a national effort to 
engage local decision-makers in coastal areas on the topics of 
community development, planning, and hazard mitigation.
    Sea Grant's 1999 Hammer Award-winning program in seafood 
safety training and the national marine management effort are 
examples of other successful national programs.
    Virtually every serious study of Sea Grant has noted its 
effectiveness. In 1994, the National Research Council found 
that Sea Grant had played a significant role in U.S. marine 
science, education, and outreach. A November 2000 study, 
entitled ``A Mandate to Engage Coastal Users,'' conducted by a 
committee led by John Byrne of Oregon State University and the 
Kellogg Commission, indicated that Sea Grant has been effective 
in facilitating throughout the Nation sustainable development 
of coastal resources by helping citizens make better-informed 
and wiser decisions.
    Sea Grant is a results-oriented partnership that is crucial 
to NOAA's missions. Its role within NOAA is growing and 
becoming more important to the agency. Sea Grant educators work 
with NOAA's marine sanctuary staff to develop education 
programs on issues such as marine protected areas.
    Sea Grant conducts a major research effort focused on the 
importance of fish habitat and productivity of U.S. marine 
fisheries in support of the new habitat conservation provisions 
in the Magnuson-Stevens Act.
    The National Marine Fisheries Service (NMFS) and Sea Grant 
jointly fund a graduate fellowship program in population 
dynamics and marine resource economics, areas of critical 
shortages in the agency.
    Sea Grant and NMFS recently joined with other partners to 
conduct a state of the science symposium on critical issues 
such as managing recreational fisheries, essential fish 
habitat, fisheries in a changing climate.
    Sea Grant and NOS, the National Ocean Service, a part of 
NOAA, are working together on the innovative NEMO program that 
provides geographic information system-based science 
information on watersheds and nonpoint source pollution to 
local policymakers.
    Sea Grant conducts an extension program with NOAA's Great 
Lakes Environmental Research Laboratory (GLERL) to get 
scientific information produced by GLERL scientists into the 
hands of local users.
    NOAA's National Weather Service is teaming with Sea Grant 
to help educate the public about the dangers of rip currents, 
which account for 80 percent of the beach rescues annually.
    Sea Grant is collaborating with NOAA's National Severe 
Storms Lab to test new advanced weather technology to deliver 
more accurate flood and flash flood warnings and to mitigate 
damages from them.
    The Lab developed technology, which Sea Grant is able to 
apply through its extension network, and works with the State 
of North Carolina to help apply that technology. As a result, 
the State has dramatically improved its ability to anticipate 
floods, provide aid in evacuation and disaster-planning 
efforts.
    Sea Grant's ability to work with weather and atmospheric 
phenomena, in addition to its marine science efforts, 
demonstrate its growing importance to the entire NOAA mission.
    In short, I believe the Sea Grant program has played and 
will continue to play an important role in promoting research, 
education and outreach activities that are valuable to NOAA's 
mission and to marine and coastal users around the Nation.
    Increased development, population, and pollution in the 
Nation's coastal areas are threatening our natural resources, 
upon which so many individuals and businesses rely for their 
economic well-being.
    NOAA's National Sea Grant Program will continue to use its 
unique ability to focus on sustainable development of the 
Nation's coastal resources through an organization that is 
national in scope, university-based, and committed to the 
transfer of research results to coastal and marine user groups.
    Mr. Chairman, that concludes my testimony. Thanks again for 
the opportunity to be here today. I look forward to answering 
your questions.
    [The prepared statement of Dr. Evans follows:]

Statement of David L. Evans, Assistant Administrator, Office of Oceanic 
      and Atmospheric Research, National Oceanic and Atmospheric 
                             Administration

    Good morning, Chairman Gilchrest, members of the Subcommittee and 
staff. I am David Evans, Assistant Administrator for the Office of 
Oceanic and Atmospheric Research within the National Oceanic and 
Atmospheric Administration (NOAA). On behalf of Secretary of Commerce 
Don Evans, I am pleased to speak to you today about the National Sea 
Grant College Program (Sea Grant), a partnership between the Nation's 
universities and NOAA that began in 1966 pursuant to the National Sea 
Grant College and Program Act (P.L. 89-688). The Sea Grant program is 
made up of thirty Sea Grant college programs located in coastal and 
Great Lakes states and Puerto Rico that use the skills and resources of 
several hundred U.S. universities and scientific institutions to 
conduct marine research, education, and outreach activities.
    Specifically, I have been asked to provide NOAA's views on two 
pieces of legislation: H.R. 1071, the National Sea Grant College 
Program Authorization Enhancement Act, and a draft reauthorization bill 
entitled the National Sea Grant College Program Act Amendments of 2001. 
H.R. 1071, introduced by Congressman Eni F. H. Faleomavaega and Rep. 
Abercrombie, would increase the authorization levels for the Sea Grant 
program to $100 million annually starting in Fiscal Year 2002. The 
draft bill, in contrast, would increase authorization levels for Sea 
Grant to $110 million in Fiscal Year 2004 and make other organizational 
changes. The current Sea Grant Program Act (P.L. 105-160), which 
expires in Fiscal Year 2003, authorizes $67.8 million for Sea Grant in 
Fiscal Year 2002 and $68.8 million in Fiscal Year 2003. The 
Administration has requested $62.4 million for Sea Grant in Fiscal Year 
2002, an increase over the Fiscal Year 2001 appropriation for this 
program.
    The Administration has not yet undertaken a formal review of either 
H.R. 1071 or the draft reauthorization bill. We do, however, look 
forward to working with Congress on a reauthorization of the Sea Grant 
program that is consistent with the Administration's budgetary and 
policy goals. The Administration is interested in seeking reforms that 
will further promote merit-based competition and improve the 
effectiveness of the program.
    The National Sea Grant College Program History and Organization
    Today, I would like to highlight some of the history and 
accomplishments of the Sea Grant Program and emphasize the critical 
role that Sea Grant plays in fostering a federal-state partnership for 
marine research and resource management. As I noted previously, the 
National Sea Grant Program was created in 1966 and was based on the 
concept of establishing a marine version of land grant colleges, which, 
through a combination of research and outreach activities, have played 
a key role in the development of modern agriculture. The Nation's 
experience with land grant colleges demonstrated that research, 
education and the ability to rapidly transfer new knowledge into public 
policy and economic gains are the keys to sustainable development and 
prosperity. Similarly, the thirty Sea Grant college programs bring 
research, outreach and educational expertise to promote the sustainable 
development of the Nation's marine and coastal resources. Sea Grant is 
also responsible for providing information to coastal and marine users 
on relevant research results that may have beneficial applications for 
coastal and marine enterprises. One recent example, among many, makes 
the point. A protective mesh for clams developed by Sea Grant research 
in the early 1990's has resulted, in less than a decade, in an 
increased yield valued today at almost $40 million per year to the New 
England clam industry.
    After NOAA was created in 1970, the Sea Grant program was 
transferred from the National Science Foundation to the new agency. 
University partnerships such as Sea Grant allow NOAA to respond to new 
problems without the costly maintenance of permanent Federal 
infrastructure. Sea Grant is NOAA's principal point of engagement with 
the university community on coastal and Great Lakes issues. NOAA's Sea 
Grant is a true federal-state partnership in which states are required 
to contribute matching funds on a 2:1 federal-state ratio before they 
can leverage federal appropriations for their Sea Grant program. This 
matching requirement allows NOAA's Sea Grant program to expand the 
reach of its efforts considerably. In addition, other federal and state 
agencies contribute funding to Sea Grant through cooperative 
partnerships.
    In 1979 the Sea Grant Intern Program, renamed the Dean John A. 
Knauss Marine Policy Fellowship program in 1987, began. This program, 
also know as the Sea Grant Fellow program, provided a select group of 
graduate students with the opportunity to work for Congress or a 
federal agency on marine issues for one year. The Sea Grant Fellow 
program now has over 400 alumni, several of whom have gone on to serve 
Congress, including this Subcommittee, in key staff position on both 
sides of the aisle.
    In Fiscal Year 1997, the new Sea Grant Director, Dr. Ronald Baird, 
introduced a number of major management changes in Sea Grant that were 
designed to improve performance, responsiveness, and programmatic 
relevance. Dr. Baird's innovations included increasing local 
responsibility for decision making, institutionalizing a system of 
rigorous peer review of programs with an emphasis on research outcomes 
and streamlining the management infrastructure. These reforms have 
substantially strengthened the administration, responsiveness and 
relevance to management issues of Sea Grant programs nationwide. A 
recent example of Sea Grant's improved ability to respond with a multi-
coordinated effort is its creation, along with NOAA's Coastal Services 
Center, of the HazNet web site at www.haznet.org. This site puts 
coastal hazard information at the fingertips of coastal managers and 
the public. It provides information about natural hazards and the 
current planning and research efforts of Sea Grant programs nationwide, 
NOAA, FEMA, and state and local community sources. The site provides 
one-stop shopping for information on hurricanes, tornadoes, floods, 
coastal erosion, earthquakes, tsunamis, and volcanoes.
    Another recent management reform is the introduction of national 
strategic investments, which have allowed NOAA to engage universities 
through nationwide focus on critical issues, yet maintain local and 
regional implementation. Sea Grant's programs in non-indigenous 
species, fish habitat, marine biotechnology, oyster disease, and 
mariculture are examples. This year (fiscal year 2002) Sea Grant will 
establish a national effort to engage local decision makers in coastal 
areas on the topics of community development, land use planning, and 
hazard mitigation. Sea Grant's 1999 Hammer Award-winning program in 
seafood safety training and the national marina management effort are 
examples of other successful national programs.
    Several studies of Sea Grant have noted its effectiveness. In 1994, 
the National Research Council found that Sea Grant has played a 
significant role in U.S. marine science, education and outreach. This 
study also pointed out some concerns and provided recommendations for 
improving program effectiveness. In a November 2000 study, entitled ``A 
Mandate to Engage Coastal Users,'' a committee led by John Byrne of 
Oregon State University and the Kellogg Commission indicated Sea Grant 
has been effective in facilitating the Nation's sustainable development 
of coastal resources by helping citizens make better informed and wiser 
decisions. Twenty-two of the thirty Sea Grant Programs have undergone 
performance evaluations by teams of outside reviewers and Sea Grant 
peers, and sixteen were graded ``excellent'' in achieving significant 
results. A program was graded ``excellent'' if it produced significant 
results, connected Sea Grant with users, and was not found to need 
improvement in areas such as long-range planning and management.
    Sea Grant educators work with NOAA's Marine Sanctuaries staff to 
deliver educational programs on key issues such as marine protected 
areas. Sea Grant conducts a major research effort focused on the 
importance of fish habitat to the productivity of U.S. marine 
fisheries, in support of the new habitat conservation provisions of the 
Magnuson-Stevens Act. NMFS and Sea Grant jointly fund a graduate 
fellowship program in population dynamics and marine resource 
economics, areas of critical shortage in the agency. Sea Grant and NMFS 
recently joined with other partners to conduct state-of-the-science 
symposiums on critical issues such as ``Managing Recreational 
Fisheries,'' ``Essential Fish Habitat,'' and ``Fisheries in a Changing 
Climate.'' Sea Grant and NOS are working together on the innovative 
Nonpoint Education for Municipal Officials program that provides 
geographic information systems-based science information on watersheds 
and nonpoint source pollution to local policy makers. Sea Grant 
conducts with NOAA's Great Lakes Environmental Research Laboratory 
(GLERL) an extension program to get scientific information produced by 
GLERL scientists into the hands of users. NOAA's National Weather 
Service is teaming up with Sea Grant to help educate the public about 
the dangers of rip currents which account for 80 percent of beach 
rescues annually. Sea Grant is collaborating with NOAA's National 
Severe Storms Laboratory to test new advanced weather technology to 
deliver more accurate flood and flash flood warnings and mitigate 
damages.
    NOAA must increasingly find creative ways to enhance its mission 
capability, and Sea Grant provides a unique way to engage the Nation's 
universities for this purpose.
    In short, I believe that the Sea Grant program has played and will 
continue to play a role in promoting research, education and outreach 
activities to marine and coastal users around the Nation.
     The National Sea Grant College Program Recent Accomplishments
    The National Sea Grant Program has achieved considerable mission 
success in its thirty-five year history, and I want to highlight some 
examples of those accomplishments in the areas of marine aquaculture, 
aquatic nuisance species, coastal hazard reduction, commercial 
fisheries, education, marine biotechnology and seafood safety and 
quality.
Aquaculture
    Louisiana Sea Grant researchers have designed filters used to 
improve water quality in recirculating aquaculture production systems, 
leading in turn to the development of completely automated, low energy 
use systems now found throughout the aquaculture industry. The latest 
design is a filter for use in marine systems to be patented in 2001. A 
Sea Grant-supported graduate student who worked in this area has now 
started his own company and offers several filter designs commercially. 
His company now generates more than $1 million in revenues per year and 
is growing quickly.
    As a result of Sea Grant's investment in aquaculture research and 
extension efforts, hybrid striped bass pond culture has expanded in 
just 10 years from a small demonstration project to an industry 
producing 10 million pounds of fish valued at $25 million annually.
Aquatic Nuisance Species
    The Great Lakes Sea Grant Network has made science-based 
information about zebra mussels and other aquatic nuisance species 
available at the web site www.sgnis.org. Developed by the Great Lakes 
Sea Grant network, this site contains a comprehensive collection of 
research publications and education materials produced by Sea Grant 
programs across the Nation. Originally focused on zebra mussels, the 
site also contains on other invaders including the Eurasian ruffe, the 
round goby, the sea lamprey, and the spiny waterflea. New York Sea 
Grant has also established a National Aquatic Nuisance Species 
Clearinghouse at www.aquaticinvaders.org, which houses an international 
library of research, public policy, and outreach education publications 
pertaining to invasive marine and fresh-water aquatic nuisance species 
in North America. These web sites are used by industrial and municipal 
water users, shoreland property owners, boaters, resource management 
agencies, students, teachers, outreach professionals, and researchers.
Coastal Hazard Reduction
    Software developed by Sea Grant investigators allows builders to 
``plug in'' specifications of their structure to assess the building's 
risk from coastal storm winds and water; the software also makes 
recommendations to mitigate identified risks. Structural engineers for 
the new 8,600-unit Sun City development near Hilton Head, SC credit the 
program with averting millions of dollars in potential losses as well 
as helping to protect lives in this retirement community.
    Sea Grant researchers in coastal hazard reduction have promoted new 
construction techniques such as hurricane clips, cross-braced pile 
construction, and changes in roof and window design that have saved 
millions in repairs. Homes built in accordance with Sea Grant models 
can save an estimated $220 annually in insurance premiums, or $15,000 
over the 70-year life span of the average home.
    California Sea Grant researchers have adapted two computer models 
to allow scientists to use an existing wave-monitoring network to 
estimate swell conditions at all coastal locations in Southern 
California, even those without instruments. This is important because 
instrumenting and processing data from a single site can cost tens of 
thousands of dollars annually. The models developed in this project are 
presently being used as part of the ``Orange County Storm and Tidal 
Wave Study,'' which assists better planning of future coastal 
structures through improved prediction of coastal erosion.
    Ocean sewage outfalls are major sources of contaminants to coastal 
ocean systems. Studies by the University of Southern California Sea 
Grant have produced a wealth of information about the behavior of 
effluents in the marine environment. Such information increases the 
ability of sanitation authorities to develop environmentally-sound 
policies for managing urban waste.
Commercial Fisheries
    To revitalize the flagging oyster industry, Delaware and Maryland 
Sea Grant Programs are working cooperatively to identify American 
oysters with the most useful genetically distinct characteristics. The 
researchers have taken oysters from throughout the species'' geographic 
range, the Gulf of Maine to the Gulf of Mexico, and have bred seven new 
lines that are now growing in the Chesapeake Bay. The next step will be 
to evaluate these oysters and then send the superior lines to a living 
repository established by the Molluscan Breeding Program at Hatfield 
Marine Science Center in Newport, Oregon, for the benefit of 
researchers across the nation.
    To reduce finfish (cod, sole, and pollock) bycatch, Sea Grant 
scientists have studied mesh size and the optimal placement of bycatch 
reduction devices (BRDs) in trawl nets. After Washington Sea Grant 
researchers proved that the use of large meshes could reduce bycatch in 
the West Coast black cod and sole fisheries, regulators increased the 
minimum mesh size in some trawl fisheries. These studies were extended 
to include the North Pacific pollock fisheries, and preliminary 
research results there have caused regulators to also increase the size 
of meshes in that fishery.
    To provide the fishing industry with a new method to fight diseases 
that attack commercial stocks of oysters, clams and abalone, California 
and Connecticut Sea Grant researchers have developed a technique for 
adding an inheritable gene to a mollusk. Pangenix, Inc., now has a 
license to modify this technique for commercial use.
    A Washington Sea Grant outreach specialist is testing the effect of 
highly visible, opaque netting in the upper portions of gillnets as a 
visual deterrent to birds. His research has shown that visually 
modifying salmon gillnets and adjusting fishing schedules can reduce 
entanglements of seabirds. This work, coupled with a required observer 
program performed by a Washington Sea Grant outreach specialist, has 
been credited with preventing closure of the Puget Sound sockeye salmon 
fishery, saving hundreds of jobs and millions of dollars in lost 
revenue to the region's economy.
    The Alaska Sea Grant Program was instrumental in conceptualizing 
and starting the vital program of teaching marine safety and survival 
to over 4,000 fishermen in 65 Alaskan ports.
Education
    In its first three decades, the National Sea Grant College Program 
supported more than 12,000 undergraduate and graduate students in a 
wide array of disciplines including oceanography, biotechnology, 
seafood science, ocean engineering, coastal ecology and law. In 
addition to providing academic and financial support, the cross-
disciplinary nature of Sea Grant prepared those students to assume 
leadership roles in research and resource development.
    Since 1979, 479 students have received an insider's look at the 
national policy-making process by participating in the Knauss Policy 
Fellowship program in Washington, D.C. About one-third of these 
students stay within the D.C. area, working in government offices or in 
the halls of Congress. The remaining two-thirds work in industry and 
trade associations, in state government as managers, or in academia as 
teachers and university researchers.
    Operation Pathfinder, offered through regional Sea Grant programs, 
is a two-week course aimed at increasing elementary and middle school 
teachers'' knowledge of oceanography and other marine-related topics. 
By 2000, the program had trained more than 700 teachers, who in turn 
trained an additional 14,000 educational professionals in 30 states and 
seven U.S. territories. Over a five-year teaching period, these nearly 
15,000 teachers have the potential of reaching over 5.5 million K-12 
students concerning the relevance of the world's oceans and coastlines 
and man's impact on these environments.
    The handbook ``Marine Science Careers: A Sea Grant Guide to Ocean 
Opportunities'' introduces students to a wide range of marine career 
fields and to people working in those fields. Intended for high school 
students and guidance counselors, 25,000 copies of the 40-page guide 
are now in circulation, 5,000 of which were sent free to high schools 
in non-coastal states. The public can now obtain the entire booklet via 
web site www.marinecareers.net.
    Fourth and fifth graders, most of them from urban areas, are being 
made into ``island explorers'' under a University of Southern 
California Sea Grant program. So far, some 70 children have been 
introduced to the fundamentals of marine science through activities in 
the San Pedro Channel and on Catalina Island.
Marine Biotechnology
    Sea Grant organized the first systematic research effort in the 
United States to develop new drugs from marine organisms, resulting in 
the discovery and description of more than 1,000 compounds that may be 
vitally important. Some of these Sea Grant-discovered compounds are 
being tested by both government agencies and commercial pharmaceutical 
companies as possible treatments for AIDS, inflammatory diseases such 
as arthritis, and prostate, lung and breast cancers.
    Scientists at California Sea Grant have found that the shells and 
skeletons of marine organisms have unique traits such as remarkable 
strength and biocompatibility that could be used to design valuable, 
new advanced materials. For example, coral skeleton, a mineralized 
composite used in medical implants and construction materials, provides 
a useful model for the design of new high performance composites with a 
wide range of potential applications, from microelectronics to new 
medical and catalytic devices. Currently, the researchers are working 
with the DuPont Corporation and Amgen, Inc., to identify the biological 
components and properties that they expect to use for shaping crystal 
fibers of skeletal material into micro-thin bundles resembling the 
high-performance, fiber optic cables needed for advanced communications 
and computing devices.
    ``Extremophiles,'' organisms that exist in extreme temperature 
zones such as underwater thermal vents or ice floes, are being studied 
by Washington Sea Grant researchers. For instance, cold-loving 
bacteria, collected during several ice-breaking expeditions in the 
Greenland and Norwegian Seas, are being studied to increase the variety 
of cold-tolerant enzymes available to industry. One of the largest 
markets for these enzymes is for use in improving the effectiveness of 
energy-saving cold-water detergents.
    Using DNA sequences, Sea Grant researchers are developing rapid 
field tests to identify harmful algal blooms, a growing environmental 
problem in coastal waters worldwide. With accurate field-testing, 
managers can respond more effectively to reduce health risks to both 
humans and animals.
Seafood Safety and Quality
    To aid the seafood industry in complying with new FDA regulations, 
the National Sea Grant College Program spearheaded the formation of a 
partnership known as the ``Hazard Analysis and Critical Control Point 
(HACCP) Alliance.'' The goal of this alliance was to ensure the safety 
and quality of seafood consumed in the United States by developing a 
unified training and certification program to properly train thousands 
of seafood inspectors, instructors, and workers. In cooperation with 
the FDA, the Sea Grant network developed a three-day training program 
that is used by both Sea Grant and the National Marine Fisheries 
Service to train the trainers.
    A cadre of 590 trainers conducted over 350 HACCP courses, teaching 
11,000 professionals--90 percent domestic and 10 percent international, 
with 75 percent representing commercial interests and 17 percent 
regulatory interests. The Alliance's efforts influenced more than 5,000 
seafood processing firms in the U.S. and 5,900 importers and their 
international suppliers.
    In 2000, New York Sea Grant surveyed the 5,000 seafood companies 
who had participated in the domestic program. Seven hundred and forty-
four seafood businesses from 43 states and three territories responded 
to the survey. Seventy-seven percent of the respondents said they would 
not have been able to develop a plan to comply with new U.S. Food and 
Drug Administration seafood processing safety regulations without the 
in-depth training courses conducted nationwide under the auspices of 
the National Sea Grant College Program and the HACCP Alliance. Over 90 
percent felt that the Alliance training course provided them with the 
information they needed to develop a HACCP plan, understand FDA's 
guidance information, and comply with the FDA seafood HACCP regulation. 
Eighty-eight percent of the responding firms indicated that employees 
from the firm developed their own HACCP plan.
    Sea Grant's efforts to help the U.S. seafood industry implement the 
new FDA-mandated processing procedures were recognized with the receipt 
of a federal Hammer Award for ``partnerships that make a significant 
contribution in improving the way federal agencies accomplish their 
responsibilities.''
    Sea Grant programs are developing rapid and sensitive methods to 
detect contaminated seafood. Mississippi-Alabama researchers have 
developed fast and highly specific polymerase chain reaction techniques 
for detecting several specific pathogens not only in shellfish, but 
also in meat products, cooked sausage, and milk. In addition, Louisiana 
Sea Grant researchers have developed a quick test for detecting a 
bacterium found in food and the environment, which causes severe 
disease in some humans and death in those with damaged immune systems. 
Now that the more virulent strains of this bacterium can be easily 
detected and monitored, consumers can confidently buy and consume safe, 
wholesome shellfish.
                               Conclusion
    Increased development, population and pollution in the Nation's 
coastal areas are threatening the natural resources upon which so many 
individuals and businesses rely on for their economic well being. 
NOAA's National Sea Grant College Program focuses on sustainable 
development of the Nation's coastal resources through an organization 
that is national in scope, university based, and committed to the 
transfer of research results to coastal and marine user groups.
    Mr. Chairman, this concludes my testimony. Thank you for the 
opportunity to be here today. I look forward to answering any question 
you or members of the Subcommittee may have.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Dr. Evans.
    Dr. Knatz?

 STATEMENT OF GERALDINE KNATZ, CHAIRMAN, SEA GRANT REVIEW PANEL

    Ms. Knatz. Mr. Chairman, members the Committee, my name is 
Geraldine Knatz, and I Chair the National Sea Grant Review 
Panel, which is the congressionally mandated advisory body to 
the Secretary of Commerce, the NOAA administrator, and the 
director of the National Sea Grant College Program.
    The National Sea Grant Review Panel has taken an active 
role in the work of Sea Grant. They are a dedicated group of 
leaders in marine and coastal issues from industry, academia, 
and local government from around the country.
    And I am very proud to say, they make up a major portion of 
the audience behind me.
    Speaking on their behalf, I thank you for the opportunity 
to testify on this important legislation.
    The panel strongly endorses the reauthorization of the 
National Sea Grant College Program and strongly urges the 
Committee to authorize the program at the higher $100 million 
level. That should be the starting point for year one, with an 
escalation of that dollar number over time.
    We also support the inclusion of the Coastal Ocean Program 
within the Sea Grant and believe this will solidify greater 
cooperation between Sea Grant universities and other NOAA 
coastal programs.
    Why the bigger number? Because over a period of years, we 
have seen erosion of the ability of Sea Grant programs to 
provide for their core components; because there are large 
coastal areas with no Sea Grant services, such as the South 
Pacific and some areas of Alaska; because demand for services 
is growing faster than the budget; and because Sea Grant has 
identified nine critical strategic areas of focus for the 
coming decade. You will hear about many of them this morning.
    As a panel member, I have had the opportunity to visit many 
programs. I have seen highly creative Sea Grant directors 
leverage their Federal dollars to produce extraordinary results 
as they have learned to do more with less. Yet opportunity to 
support critical research in these nine thematic areas, along 
with the transfer of that knowledge to the end-user, are 
foregone at the time of increasing pressures on coastal 
environments.
    Sea Grant is the only NOAA program whose mission is to 
transfer research results to the user through a dedicated 
extension program.
    Recently the review panel initiated an independent, in-
depth analysis of the program's extension services. The 
results, which are found in this report, ``A Mandate to Engage 
Coastal Users,'' were that Sea Grant has proven its ability to 
take sound scientific research, present it as an honest broker 
to the public and stakeholders for use in public decision-
making.
    And another key finding, as you have already heard, is 
there are many areas where there are too few extension and 
educational specialists: one in Los Angeles, none in San 
Francisco, none in the metropolitan northern New Jersey area.
    It has been very gratifying to me personally to read in the 
written testimony provided by the other speakers today that 
almost everyone noted in their written testimony that the 
volume of international trade through our Nation's ports will 
double in the next 20 years. As managing director of one of the 
Nation's largest ports, Long Beach, California, I represent a 
segment of the maritime community that exerts significant 
pressure on our coastal communities.
    I am also responsible at Long Beach for getting ready to 
handle that doubling of trade. And I thought you would be 
interested in hearing what I have to do, to get ready for that.
    First, I need to permanently destroy 800 acres of valuable 
marine habitat through the process of dredging and landfilling 
to build new container terminals. This is habitat, by the way, 
that is an important nursery area for commercially important 
species.
    Since I only have habitat credits to build 100 acres of new 
land, I have to create and additional 700 acres of fishery 
habitat. I haven't the foggiest idea where or how I am going to 
do that.
    I have to eliminate the recreational boating activity in 
our harbor because the water area they sail in, I am going to 
turn into land.
    And I have to get the Federal anchorage areas for ships 
fueling and hazardous material handling moved further south out 
of the way of my development in front of our city's beaches.
    And I have to prepare my community for an additional 60,000 
big diesel truck trips per day.
    And I hope I am successful, because if I am not, the other 
coastal areas already struggling with their own development 
pressures are going to have to pick up my slack.
    The bottom line is, there is a rapidly expanding market for 
the kinds of services Sea Grant can deliver and a need for Sea 
Grant's services in the policy and environmental debate over 
port development. But the program needs to be positioned both 
fiscally and strategically to do this.
    As and end-user, I have seen Sea Grant deliver. Sea Grant 
has been at the forefront of the battle against invasive 
species.
    The California Sea Grant program produced this brochure on 
our Federal and state ballast water management program. I make 
sure that our pilots hand this brochure to the captain of every 
vessel that comes into our harbor. It has simple instructions: 
what to do, what not to do, don't ballast at night, it has 
centerfold pinup of your favorite invasive species.
    [Laughter.]
    And although we have a stricter program in California, our 
compliance rate is over 90 percent. If you ask the Coast Guard 
what the compliance rate is with the Federal program in other 
areas of the country, you will find in most it is about 30 
percent.
    This is classic Sea Grant: Take the science; hand it to the 
user in a way that the user can understand it. It is also 
classic Sea Grant in that this was a rapid response. The Coast 
Guard published a notice in the Federal Register; California 
quickly passed a law; and all of a sudden, there was a problem. 
The Sea Grant university resources were mobilized, and we 
immediately had a solution.
    Sea Grant is a valuable asset. It is not a handout. It is a 
merit-based program. There is a peer review of research and 
outreach components. Couple that with the national review panel 
that does a substantive review of every program every 4 years.
    We actually grade the programs. We go out there. We look at 
how they are strategically planning for the future. We look at 
the significance of the research results. We look at how 
effectively that research gets turned over to the end-user.
    We use a business model. What is the return on investment 
for the Federal dollar? And we expect results.
    And that group behind me may look friendly, but I have to 
tell you, they are really tough.
    [Laughter.]
    Your appropriation, Mr. Chairman, is an investment with 
limited risk and great returns.
    I am going to conclude my remarks by taking off my Sea 
Grant hat, taking off my port hat, and I am left with my mommy 
hat. I have two first-graders in public school, so the K-12 
education is important to me.
    Their elementary school curriculum is almost devoid of 
science. It focuses all year on preparing them to take a test 
that is going to determine how much money their school gets. 
Good thing mom is a scientist, since I figure I am going to 
have to teach them science myself.
    Every Sea Grant program has to have a K-12 education 
program. The panel looks for that when we go out for our 
reviews. It is part of our evaluation.
    I have seen kids from far-flung areas in Alaska get turned 
on to marine science through Sea Grant and the educational 
curriculums they have developed.
    I have seen kids in Maryland that have had their first 
opportunity to look through a microscope because of Sea Grant.
    Without Sea Grant, who is going to turn on the next 
generation of kids to marine science?
    So for all of those kids out there who don't have a 
scientist for a mommy, I ask that you think big for them. They 
are our future. Thank you.
    [The prepared statement of Ms. Knatz follows:]

        Statement of Dr. Geraldine Knatz, Sea Grant Review Panel

    Mr. Chairman, my name is Geraldine Knatz and I am the Chair of the 
National Sea Grant Review Panel, which is the Congressionally mandated 
advisory body to the Secretary of Commerce, the Administrator of the 
National Oceanic and Atmospheric Administration, and the Director of 
the National Sea Grant College Program.
    The National Sea Grant Panel has taken an active role in the work 
of Sea Grant, and I appreciate the opportunity to appear before the 
Subcommittee on Fisheries Conservation, Wildlife & Oceans to discuss 
the NOAA Sea Grant Program with you and the members of the 
subcommittee. I thank you for the invitation to testify briefly on this 
important legislation.
    The Panel strongly endorses the reauthorization of the National Sea 
Grant College Program and would strongly encourage the Committee to 
authorize the program at the higher $100 million level of H.R.1071. We 
also support the inclusion of the Coastal Ocean Research Program within 
the Sea Grant Program as delineated in the discussion draft provided by 
the Chairman. I believe this union of two important NOAA programs will 
solidify greater cooperation and coordination between Sea Grant 
universities and NOAA's other coastal programs.
    My purpose here today is to try to make the case for the future 
importance to the national interest of a strong Sea Grant Program, and 
its suitability for increases in investment over the coming years. My 
objective is to touch upon Sea Grant's unique capabilities that are 
particularly well-suited to its important role in U.S. marine science 
and the Nation's future capability to manage coastal resources.
    This is a time of escalating environmental issues, limited 
discretionary government spending, and expanding responsibilities at 
all levels of government to effectively manage natural resources. It 
will be incumbent on our institutions to support a national 
infrastructure that most effectively ensures the nation's future 
capacity to manage natural resources. Engagement with universities 
affords NOAA essential flexibility, access to the ``clearing houses'' 
of new ideas and technologies, and development of the human resource 
base necessary to maintain critical capacity. University partnerships 
allow NOAA to be responsive to new problems. Sea Grant is, today, 
NOAA's principal point of engagement with the university community on 
coastal and Great Lakes issues.
    In perhaps the most ideal and practical application of scientific 
research to the nation's needs, NOAA Sea Grant works by staying in 
close touch with grassroots needs through its network of marine 
extension agents and specialists, then by addressing problems through 
competitive, merit-reviewed university research, and by seeking 
constant feedback from researchers and users. Recently, the National 
Sea Grant Review Panel initiated a review of the Sea Grant Extension 
Program that resulted in the report entitled ``A Mandate to Engage 
Coastal Users.'' The review committee was chaired by Dr. John V. Byrne, 
former NOAA Administrator and President Emeritus of Oregon State 
University. I highly recommend this report to the Subcommittee's 
attention. A key finding was that Sea Grant Extension has proven its 
ability to take the information resulting from sound scientific 
research and present it as an honest broker to the public and 
stakeholders for use in making public and personal decisions.
    In 1997, the Sea Grant Review Panel initiated a rigorous and 
continuous program of performance-based evaluations of Sea Grant 
programs. This followed from a recommendation made by the Ocean Studies 
Board of the National Research Council in their 1994 report, ``Review 
of the National Sea Grant College Program.'' A board of visitors, 
consisting of Panel members and outside experts and using established 
criteria and benchmarks to measure performance, conducts an in-depth 
review of accomplishments and impacts of each Sea Grant program. We are 
just completing our first four-year cycle of reviews of all 30 
programs, and I am pleased to report that the level of performance in 
Sea Grant is very high across the Nation.
    Observations from these in-depth reviews have identified a number 
of areas where NOAA Sea Grant is providing leadership:
    a) in marine biotechnology to develop new materials, better 
seafood products, environmental remediation, and new pharmaceuticals 
(antibiotics and other new medicines) from the sea;
    b) in seafood safety to educate workers to the highest standards 
of food safety and, thus, to ensure that consumers have a high quality 
supply of seafood, and that seafood businesses can be more competitive;
    c) in coastal climate and hazards research to assist coastal 
residents in preparing for hurricanes, storm surges and tsunamis, 
coastal erosion and subsidence, and sea level rise, with potential 
savings in the billions of dollars;
    d) in the numerous recent problems of disease in fish and marine 
life along the coasts and estuaries;
    e) in exotic and nonindigenous species research to understand and 
mitigate invasions of species such as the zebra mussel in the Great 
Lakes, which represent a billion-dollar threat to water supplies and 
ecosystem quality;
    f) in the preservation of the habitats of fish and various marine 
species; and
    g) in sustainable coastal development to provide science-based 
information to businesses and local governments to foster 
environmentally-sound economic growth.
    Sea Grant provides substantial leverage to the federal investment. 
Today, for every $1 million in federal funds invested, an additional 
$600 thousand is contributed by non-federal partners. Additional 
financial leverage is achieved through cooperative partnerships with 
federal and state agencies. Sea Grant has long been known for its 
economic contributions and very positive return on investment. For 
instance, Sea Grant spearheaded the formation of an alliance of federal 
agencies, industry, and universities to aid the seafood industry in 
meeting the training needs called for by new FDA regulations. This 
seafood alliance reached more than 5,000 U.S. processing plants, and 
6,000 importers and international suppliers with training on new 
seafood handling and processing techniques. It has been estimated that 
the program prevented 20,000 to 60,000 seafood related illnesses a 
year, thereby saving as much as $115 million annually.
    NOAA Sea Grant's highly effective infrastructure involves 
partnerships with this nation's finest universities. The long-standing 
network of relationships among local, state, regional and national 
constituencies is unique and a virtually irreplaceable resource to 
NOAA. To summarize, Sea Grant is an efficient, results-oriented, well-
managed federal-state partnership that gets things done that need doing 
in the context of NOAA's mission. We would argue that Sea Grant is 
exemplary in satisfying the first criterion of a good public 
investment, namely institutional effectiveness.
    I would like to address for this Committee whether the societal 
needs for the services Sea Grant provides are growing, whether they are 
critical to the national interest, and whether they are already 
duplicated in the federal infrastructure. I would argue that the 
Congress'' rationale for the first Sea Grant Act makes a much more 
compelling story today and for the foreseeable future; that Sea Grant 
contributes significantly to the national interest and is not 
duplicated elsewhere is equally compelling.
    Our argument rests largely on the extreme pressure on the 
coastlines of the United States from increased population growth and 
development. Today, over half of the population of the U.S. lives in 
coastal (including the Great Lakes) counties. The rate and scale of 
that growth are unprecedented but not yet well appreciated by the 
general public. As coastal development pressures increase and coastal 
population rises, the impacts on the environment will become more 
severe. A few examples make the point.
    a) Recent census figures indicate that the U.S. has added about 33 
million people since 1990, equal to the current population of 
California. Fully, one half of that addition was accounted for by just 
seven coastal states. Seventeen of the 20 most populous states, in 
2000, are coastal states.
    b) Studies at the University of Illinois indicate that by 2025, 
the nation's top 20 oceanic and Great Lakes coastal metropolitan 
regions are likely to increase their population by 32 million people, 
their urban footprints or sprawl to expand by 45% or 9,000 sq. miles.
    c) By 2020, ocean borne trade is expected to at least double and 
inland traffic increase by 30 %. It is estimated that the marine 
transportation system contributes more than $700 billion to GDP.
    d) Eighty-five percent of U.S. tourist revenues are in coastal 
states, 6.4 trillion tons of sand are moved each year for beaches, 
wastewater effluents to U.S. receiving waters are in excess of two 
trillion gallons/day, and the U.S. imports over $14 billion of seafood 
annually.
    e) A recent study by the National Research Council indicates non-
point source pollution from nitrogen and phosphorus now represents the 
largest pollution problem facing U.S. coastal waters. That pollution is 
linked to a host of other problems including dead zones, anoxia, fish 
kills and noxious algal blooms.
    f) Serious erosion damage is occurring along more than 70% of all 
U.S. coastlines, apparently due to rising sea level, increased storm 
activity, and other causes.
    I could site many other examples. The take home message is that the 
economic, environmental and social demands on our coastal regions are 
immense and are growing rapidly as the population increases. The need 
for practical, timely solutions to problems, resolution of conflicting 
uses, and help in general will grow as threats increase in scale and 
complexity. It will be imperative that our institutions of governance 
at the national, state and local levels be engaged in this process.
    The implications for NOAA and the nation are that there will 
continue to be an enormous demand for environmental knowledge and 
understanding as well as environmental literacy and public awareness. 
There will also be a premium on environmental protection, best 
management practices, education, communication, and the social 
dimensions of multiple use conflict resolution. It will also call for 
the rapid synthesis and dissemination of science-based information for 
societal benefit. Finally, effective solutions will require a more 
dispersed, participative regulatory climate with increased local and 
regional stakeholder input to public policy and greater engagement and 
coordination among federal, state and local entities with coastal 
jurisdictions.
    Currently, Sea Grant is the only federal institution whose mission, 
as mandated by Congress, is to specifically focus on the sustainable 
development of the Nation's coastal resources accomplished through an 
organization national in scope, university-based, and committed to the 
creation and transfer of science-based knowledge to user 
constituencies. Sea Grant is the only program in NOAA whose mission is 
the transfer of ocean and coastal knowledge to the user through a 
dedicated nationwide extension program. It is these inherent attributes 
in terms of organizational strength, mission and output of services 
that make Sea Grant's contributions fully consistent with the 
unprecedented demands on the country's coastal resources. In a business 
sense, there is a rapidly expanding market for those things Sea Grant 
does best.
    Sea Grant's combined strengths are unique and cannot easily be 
duplicated in other areas of NOAA or the federal infrastructure as a 
whole. In addition to Sea Grant's powerful enabling infrastructure with 
its track record of success, network of long-standing constituent 
relationships and congruence of output to growing national needs, we 
must be aware of the unique value added to investments in Sea Grant 
that derive from the collective strengths of that infrastructure. The 
more important are listed below:
    a) The stability of partnerships between NOAA and Sea Grant 
Colleges and institutions allows the agency to address long-term 
programmatic goals and develop constituent relationships and local 
leadership nationwide.
    b) Having local management in place ensures NOAA's investment 
flows to the highest local priorities, bringing the most appropriate 
university resources to bear on these problems. Presence of a highly 
effective extension and outreach infrastructure enables rapid transfer 
of objective information to users, timely identification of emerging 
issues, and a forum to engage local constituencies in policy and 
priority setting.
    c) NOAA Sea Grant is a major national educational resource for 
developing marine scientists, engineers, coastal and resource managers, 
and professionals in related fields. Having supported tens of thousands 
of undergraduate and graduate students over its history, ``graduation'' 
has become one of the most effective mechanisms for technology 
transfer. Sea Grant's internship and fellowship programs prepare 
students for leadership roles in research and resource stewardship. 
Marine education programs for K-12 teachers and students are developing 
science literacy and assuring that the educational pipeline in critical 
skill areas keeps flowing.
    d) The NOAA Sea Grant program can and does reach, literally, 
millions of people through its communication, education and extension 
networks. In a world where public awareness and knowledge of the 
environment will be increasingly critical to public policy, NOAA Sea 
Grant capabilities play an important role for the agency in 
transferring objective information to a diverse, nationwide audience.
    e) By reason of its national network structure, Sea Grant is able 
to bring the collective assets of a large organization to bear on 
issues or problems, yet retain the responsiveness of a much smaller 
organization. Sea Grant affords NOAA the flexibility to rapidly 
redeploy resources to respond to new problems and new technologies. 
This can be done without large capital outlays in personnel and 
equipment.
    f) Unlike federal agencies that primarily support basic research 
or highly application-directed R&D around a few central mission 
objectives, NOAA Sea Grant engages university resources in problem 
solutions and practical outcomes. This it does on a broad front, using 
the leverage of multi-partnerships, multi-disciplines and comprehensive 
geographic coverage that characterize today's resource issues.
    g) In addition to NOAA Sea Grant's ability to plan nationally and 
implement locally, the program evaluates its research portfolio both in 
terms of the quality of the science and the relevance of that science 
to local, regional and national issues. The result is a research 
portfolio devoted to management critical, place based or geographically 
specific science where priorities are set with significant user input. 
This is a critical but often under-appreciated dimension of Sea Grant's 
contribution. Generating science-based information from specific 
geographic regions throughout America on an ongoing basis will be 
absolutely critical to the country's capacity to adequately manage 
coastal resources.
    The sum total of the arguments advanced here is that Sea Grant 
produces a great return on the investment of public funds, has a 
combination of strengths and mission that make it not only effective 
but also unique in NOAA and the Federal Government. Its contemporary 
management structure, its intense focus on national issues in regions 
of great economic and environmental import, and its proven ability to 
engage our finest universities in those issues make this program a 
prime candidate for an expanded role in this country's coastal agenda.
    Future federal investment in U.S. environmental science and 
sustainability are inevitable consequences of growth. Unlike, for 
instance, existing political coalitions for agriculture or human 
health, a national coastal policy and a politically coherent coastal 
constituency have only recently begun to emerge. Nonetheless, the 
issues of coastal constituents will increasingly demand our attention.
    Arguments advanced here support Sea Grant's strong fundamentals in 
terms of relevance, cost effectiveness, productivity and the high 
quality of its programs, and Sea Grant's important role in any future 
national coastal agenda. The aforementioned NRC and Byrne Committee 
reports observe that, given the importance of the coasts to the 
country's well-being plus the complexity and urgency of producing 
adequate science for management decision making, Sea Grant's ability to 
address the myriad opportunities where it could make a difference is 
significantly hindered by financial resources. There is a host of areas 
where additional investments in Sea Grant could have a long-term, 
positive effect on U.S. marine science, education, and coastal 
management practices. Listed below are some of the most promising.
    a) Sea Grant's Science Portfolio: Sea Grant now spends for 
scientific research, on average, a little over $1 million annually in 
federal funds for each of 30 programs nationwide. That equates to 
relatively few (ca 16) modest sized (<$100K) research grants per year 
per program. While Sea Grant has been very successful in engaging 
university researchers and leveraging through partnerships, less than 1 
in 5 proposals is funded. In a recent aquaculture competition, 
proposals totaled almost 50 times the available funds. Sea Grant has 
recently identified 9 critical strategic areas of focus for the coming 
decade. Yet, many opportunities to support timely, management critical 
science in these areas are foregone at a time of increasing pressures 
on coastal environments. In addition, over the last two decades, the 
cost of college and university operations has increased significantly 
faster than inflation in the general economy as measured by consumer 
prices (154% vs. 118%), seriously affecting the purchasing power of 
university-based research. Environmental science is in many ways 
analogous to medical science in complexity, dimensionality, and impact 
on human welfare. By comparison, Sea Grant's total appropriation is 
about 12% of NIH's smallest institute (Environmental Health Science).
    b) Sea Grant's Outreach Capability: Engagement of the public at 
all levels is increasingly important to enlightened public policy, and 
Sea Grant has an extensive and effective network in place. On average, 
however, Sea Grant supports wholly or in part only about seven 
extension and education specialists per local program. Sea Grant has 
few agents serving rapidly growing urban areas. For instance, there is 
only one agent for Los Angeles, none in San Francisco, and none in 
metropolitan northern New Jersey. By comparison, although over half the 
population and a large fraction of GDP are coastally located, Sea Grant 
appropriations are only 3% of equivalent funding for the Department of 
Agriculture's Cooperative Extension Program.
    c) Regional Research: Many of the most difficult coastal problems 
are multi-state or regional in nature, yet the federal research 
infrastructure in marine science is not well-organized to plan and 
execute regional research nationwide on an ongoing basis. Sea Grant, by 
reason of its stable regional infrastructure, relationships with state, 
federal, local and university constituencies, and familiarity with 
regional issues is well-suited to plan and manage regional research 
programs. Examples of Sea Grant responding to regional problems include 
efforts targeting Chesapeake Bay eutrophication (``loading'' of 
nitrogen compounds), Pfiesteria bloom fish kills, Steller sea lion 
mortality, and zebra mussel control and mitigation. Yet, today, only 
about 5% of Sea Grant's budget is devoted to regional or multi-program 
research.
    d) Expanded Geographic Coverage: Currently, significant geographic 
areas in Sea Grant's Congressionally mandated regional responsibilities 
are not currently served because of funding limitations. These include 
several states as well as American Samoa, Guam, and other parts of the 
Western Pacific region which have an enormous Exclusive Economic Zone. 
In addition, several coastal states now share programs with adjacent 
states.
    e) National Research and Outreach Programs: Sea Grant currently 
spends about 20% of its federal budget on highly focused initiatives 
directed toward pressing national problems. Examples include exotic 
species, shellfish disease, fish habitat, and marine biotechnology. Sea 
Grant plays a leadership role nationally in all of these areas. 
However, these areas represent a small fraction of the problem areas 
that coastal constituencies are facing, and the investment here is 
modest in relation to the magnitude of the problem. The federal 
investment in Sea Grant's well-regarded exotic species program 
nationwide is $3 million annually while for a national extension/
education program for coastal decision makers, the sum is $1.5 million. 
The opportunities for federal interagency partnerships through this 
mechanism have barely been scratched.
    f) Climate and Natural Hazards: Coastal population growth has 
greatly increased the public's risk from extreme events. Recent changes 
in global climate and its variability such as El Nino events are 
indicative of significant climate effects on coastal environments, 
ranging from coastal erosion to atmospheric deposition to the 
recruitment of marine fishes. Only recently has the Sea Grant network 
begun to engage NOAA's climate/weather capabilities, yet many pressing 
coastal problems such as wetlands loss are driven in part by climate/
weather factors. Such issues promise to expand considerably, yet, 
today, Sea Grant has limited resources to address them.
    In closing, we believe Sea Grant is vital to the mission of NOAA 
and its unique strengths argue for its greater role in U.S. ocean 
science and coastal resource management. It is these inherent strengths 
and increasing demand for the services Sea Grant provides that make 
authorizing Sea Grant at a higher level of federal investment so 
important. It is a program that works and its products are valued by 
those it serves. We look forward to working with you on the 
legislation.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much.
    Maybe we can have a Sea Grant fellow in each public school 
district.
    [Laughter.]
    Ms. Knatz. That would be great.
    [Laughter.]
    Mr. Gilchrest. We will put that in the reauthorization.
    [Laughter.]
    I think we got a spark.
    Ms. Penny Dalton?

  STATEMENT OF PENELOPE DALTON, VICE PRESIDENT AND TECHNICAL 
 DIRECTOR, CONSORTIUM FOR OCEANOGRAPHIC RESEARCH AND EDUCATION

    Ms. Dalton. Good morning.
    Mr. Gilchrest. Good morning.
    Ms. Dalton. Thank you very much for the opportunity to 
testify on the National Sea Grant Program. I am Penny Dalton, 
vice president and technical director of the Consortium for 
Oceanographic Research and Education.
    CORE is the Washington, D.C.-based association of U.S. 
oceanographic research institutions, universities, laboratory, 
and aquaria.
    Our 67 members represent the Nation's leaders in ocean 
research and education. Many of our CORE institutions house Sea 
Grant programs as integral and essential parts of their overall 
curricula and activities.
    Over the past 35 years, the Sea Grant network has built 
widespread support throughout the oceanographic community.
    The program's success is built on five key points.
    First and foremost, the heart of the Sea Grant is its 
scientific research. From the time the National Sea Grant 
Program Act was enacted in 1966, the ocean community recognized 
that the program had to be scientifically credible if it was to 
be successful. The community also recognized the dire need for 
a university-based ocean and coastal research program that was 
equivalent to the National Land Grant institutions.
    Consistent with the recommendations of the Stratton 
Commission, Sea Grant was moved to the fledgling National 
Oceanic and Atmospheric Administration in 1970. Since then, it 
has allowed NOAA to develop a marine knowledge base with 
benefits to both environment and economy.
    During my tenure at NOAA, I relied on Sea Grant expertise 
in a few of the many resource crises that I faced--things that 
ranged from Steller sea lions in Alaska to the lobster die-off 
in Long Island Sound.
    The second key element of the Sea Grant program is 
education. Sea Grant education builds on its science base to 
develop a scientifically literate cadre of oceanographers, 
biologists, chemists, ecologists, and geologists who can 
understand changes in our coastal and ocean environment. And 
better yet, they can explain them.
    Further, the program is making sure that today's K-12 
students have the skills they need to prepare for a career in 
the ocean sciences.
    Putting my CORE hat back on, for example, the Sea Grant 
institutions are critical to the success of our National Ocean 
Sciences Bowl that CORE sponsors annually for high school 
students.
    For more than three decades, Sea Grant has framed 
educational opportunities and outreach for marine science and 
policymakers in this Nation.
    From a personal education perspective, Sea Grant has 
changed my life. In 1985 I received a Sea Grant fellowship to 
work for the Senate Commerce Committee. The experience opened a 
whole arena of marine policymaking to me. I hope that you will 
continue to give other new scientists that exciting 
opportunity.
    Analogous to the Land Grant colleges, the third key element 
of the National Sea Grant College Program is its extension 
program. We often hear complaints that scientists take forever 
to translate their research results into information that can 
be used in the real world. The Sea Grant extension program 
provides a mechanism for informing the public about key marine 
and coastal issues and how best to address them with current 
scientific understanding.
    The flexibility of the extension program allows for rapid 
response to emerging issues. Several years ago during the 
Pfiesteria scare, the Sea Grant extension program was on the 
scene, providing marine communities with the data they need to 
understand and tackle the program.
    Sea Grant has become an expert at finding better ways to do 
things, from building houses that withstand hurricanes to 
designing nets to protect sea turtles.
    The fourth key element is Sea Grant's proven ability to 
leverage the funds it receives to give the taxpayers the best 
value for our Federal dollars.
    Last year the National Sea Grant College Program received 
appropriations of $62 million for its base program and $10 
million for projects around the Nation. These funds were 
matched with $33 million from nonfederal program partners, 
exceeding the legal requirement for a $1 match for every 2 
Federal dollars Sea Grant receives.
    I cannot think of a better measure of Sea Grant's success 
than the commitment by its partners at the state and local 
level to go above and beyond the matching requirement.
    Responding to the success, CORE urges that Sea Grant be 
funded at at least the $75 million base level in fiscal year 
2003. In addition, we support the proposal for $15 million in 
competitive grants in zebra mussel, oyster disease, and harmful 
algal bloom research.
    CORE requests that Congress seriously consider the proposal 
in H.R. 1071 to fund Sea Grant at $100 million per year. It is 
clear that this investment will help us to better meet the 
demand our Nation is placing on ocean and coastal resources, a 
demand we all know is growing.
    A lot of people have talked about the comparison to the 
Land Grant colleges. The American Association for the 
Advancement of Science estimated that the Land Grant colleges 
received $1.1 billion in fiscal year 2001. Sea Grant receives 
roughly 5.6 percent of that total. If Sea Grant funding is 
increased to the $100 million level, it will still be only one-
tenth the size of the current Land Grant College Program.
    A modest investment in boosting Sea Grant funding could 
result in large returns for all taxpayers, from the heartland 
to our coasts.
    The fifth and final key element is that Sea Grant is a 
network with a capacity to build partnerships among 
universities, government agencies and the private sector. No 
single government agency or department will ever have the 
ability to address every ocean and coastal problem. This is 
especially true in coastal areas where we have a Gordian knot 
of Federal, state and local organizations with different 
statutory obligations. By making partnership a cornerstone of 
Sea Grant, its founders recognized the need for and built a 
program that solves problems in coastal communities by bringing 
people together.
    By developing a national network composed of regionally 
relevant programs, Sea Grant provides a capability that can 
contribute to sound ocean and coastal policies at all 
geographic scales.
    Now we must maintain and look for new ways to make use of 
that Sea Grant network.
    Thank you for allowing me to testify today. CORE looks 
forward to working with you, and I would be happy to answer any 
questions.
    [The prepared statement of Ms. Dalton follows:]

     Statement of Penelope Dalton, Vice President, Consortium for 
                  Oceanographic Research and Education

    Good afternoon, Chairman Gilchrest, Ranking Member Underwood, 
members and staff. Thank you very much for the opportunity to testify 
on the National Sea Grant College Program. I am Ms. Penelope Dalton, 
Vice President of the Consortium for Oceanographic Research and 
Education (CORE). CORE is the Washington, DC-based association of U.S. 
oceanographic research institutions, universities, laboratories and 
aquaria. Our 67 members represent the nucleus of this Nation's ocean 
research and education institutions.
    CORE is experiencing many leadership changes these days as a result 
of a flurry of ocean activity. Many of you know that our current CORE 
President, Vice Admiral Conrad C. Lautenbacher, Jr., has been nominated 
to be the Under Secretary for Oceans and Atmosphere at the National 
Oceanic and Atmospheric Administration (NOAA). I am confident that 
Admiral Lautenbacher will do a superb job at NOAA and our community is 
fortunate that the President selected a man of his stature and talent 
for this important job. Admiral Lautenbacher's predecessor, and CORE 
President Emeritus, Admiral James D. Watkins is now heading up the 
President's Commission on Ocean Policy. These two appointments strongly 
suggest to me that coastal and ocean policies are now gaining the 
stature and priority they deserve. I should point out that while these 
appointments are gratifying to CORE members, we will be sending 
President Bush a bill for a headhunter as we begin our search for our 
next CORE president.
    Today's hearing is to address the National Sea Grant College 
Program reauthorization and my testimony is going to focus on five key 
areas:
    1. Science
    2. Education
    3. Extension
    4. Leverage
    5. Partnership
    First and foremost, science and research are at the heart of Sea 
Grant College program. Sea Grant was originally in the National Science 
Foundation in the late 1960's because it was recognized by many in the 
ocean community that the program had to be scientifically credible to 
be successful. The community also recognized the dire need for a 
university-based research program for our ocean and coasts that was to 
be the equivalent of our land grant institutions. With the passage of 
the National Sea Grant College and Program Act in 1966, the program got 
underway and in 1968, Sea Grant officially awarded its first grants. 
With the Stratton Commission, Sea Grant was moved to the fledgling 
National Oceanic and Atmospheric Administration and has played an 
instrumental role in helping NOAA to expand our Nation's knowledge base 
in our coastal and ocean areas with benefits to both environment and 
economy.
    Everything that Sea Grant did then and does today does starts with 
sound science. I cannot overemphasize how important this is in terms of 
the concept of the Sea Grant ``house.'' The solid foundation of the Sea 
Grant ``house'' is science and it provides the rationale for all other 
aspects of the Sea Grant program.
    The second section of the Sea Grant ``house'' is education. 
Education logically follows from good science and involves taking the 
scientific results gained from hypothesis-driven experimentation and 
making the results available to all sectors of our nation so that they 
can apply knowledge gained in a beneficial way to any sector of our 
national economic activity. Education involves building a 
scientifically literate cadre of oceanographers, biologists, chemists, 
ecologists and geologists who have the skill to understand and 
comprehend changes in our coastal and ocean environment. It also 
involves making sure that today's K-12 students have the skills they 
need to prepare for a career in the ocean sciences. The students in 
today's Sea Grant colleges will be the future leaders in marine policy 
for our nation, and Sea Grant has provided an intellectual pipeline for 
our nation's future, a future that will obviously be more dependent 
upon our coastal economies and environment. Having the brightest 
scientific minds will enable us to better understand our options and 
limitations and Sea Grant is producing the intellectual capital needed 
to meet those demands. Education is in essence the frame of the Sea 
Grant ``house'' and for over 30 years Sea Grant has provided 
educational opportunities and outreach for those interested in seeking 
the best answers for our nation in marine science and policy.
    The third part of Sea Grant that is analogous to the Land Grant 
colleges is the extension program. The Sea Grant extension program is 
the key to taking results out of the laboratory and applying them in 
the real world. Many of us are aware that in the health sciences, there 
is a severe time delay between getting needed information out of the 
lab and into the hands of health care professionals in a timely manner. 
The Sea Grant extension program is the instrument by which research 
becomes a tangible result for the taxpayer in timely fashion. Through 
the extension program, Sea Grant has informed the public about key 
marine and coastal issues and how best to address them with current 
scientific understanding. The flexibility of the extension program 
allows for rapid response to emerging issues. Several years ago there 
was a Pfiesteria scare that many of us in this room are very familiar 
with. Sea Grant and its extension program was on the scene providing 
marine communities with the data that they needed to understand and 
tackle the problem. The Sea Grant extension program is in many regards 
our nation's first responder to marine and coastal emergencies.
    The fourth element that is key to Sea Grant is leverage. In fiscal 
year 2001, the National Sea Grant College program used $62 million in 
NOAA appropriated funds as well as $10 million in passthrough funds for 
projects around the nation. Sea Grant is required by law to secure $1 
in non-federal funds for every $2 dollars of federal funds 
appropriated. In fiscal year 2001, Sea Grant obtained $33 million from 
non-federal matching funds by program partners. Thus, Sea Grant non-
federal partners have demonstrated that they believe Sea Grant is 
working better than intended because they put in more money than they 
were required to match. I cannot think of a better performance measure 
of Sea Grant's success that the commitment by these non-federal 
partners, which are mostly state governments, to go above and beyond 
their commitment in a world where budgets are tight. Because the states 
and other non-federal partners have demonstrated by their financial 
commitment that they deem Sea Grant worthy of more dollars, I believe 
it is time for us to reconsider the right level of federal funding for 
Sea Grant. It is the CORE position that Sea Grant should be funded at 
least at the $75 million dollar base level in fiscal year 2003 and we 
believe the additional $15 million for competitive grants in zebra 
mussel, oyster disease, and harmful algal bloom research are worthy of 
support. We also ask that Congress seriously consider Mr. 
Faleomavaega's proposal in H.R. 1071 to fund Sea Grant at $100 million 
per year. It is clear that this investment will help us to better meet 
the demand our Nation is placing on coastal and ocean resources a 
demand, I might add, that we all know is growing exponentially.
    The fifth and final key to the Sea Grant program is that it brings 
together science, education, extension and leverage in partnership with 
many universities, agencies, industries and other organizations. The 
days of one federal agency or department or one level of our federalist 
system of government addressing every problem in ocean and coastal 
policy are over. This is especially true in our coastal areas where 
there is a Gordian knot of federal, state, and local organizations with 
different statutory obligations. Sea Grant is fortunate that the 
visionaries who founded the program over 30 years ago recognized the 
need for a program with the capacity to incorporate all the various 
players at all the different levels. By making partnership a 
cornerstone of Sea Grant, these visionaries recognized that we could 
solve problems in our coastal communities only by working together. Sea 
Grant responsiveness to problems and opportunities identified by 
coastal residents and businesses as well as local, regional, state and 
federal agencies works because of the partnership ethos in the program. 
By making partnerships central to its approach to remedying ocean and 
coastal problems Sea Grant has built bridges across boundaries that 
many did not believe possible. This is a remarkable feat.
    There is just one final thought I'd like to leave you with today to 
make a point of comparison. The Land Grant College program, currently 
administered by the Department of Agriculture, has a line item called 
the Cooperative State Research, Education and Extension Service 
(CSREES). For fiscal year 2001, the American Association for the 
Advancement of Science (AAAS) has estimated that the Land Grant 
colleges and their associated extension service will receive over $1.1 
billion in appropriated funds in the CSREES line item. Sea Grant, the 
analogous program for our coasts and oceans, which is where most of our 
population lives or is moving, received by comparison $62 million or 
roughly 5.6 percent of the total for Agricultural research and 
extension. By increasing Sea Grant funding to the $100 million level, 
it will still only be one-tenth the size of the Land Grant program, 
assuming the program does not grow. I think a modest investment in 
boosting the Sea Grant level of funding will result in large returns 
for all taxpayers from the heartland to our coasts.
    Thank you for the opportunity to testify today. I look forward to 
working with you on these issues and would be happy to answer any 
questions.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much.
    We will have some questions on summer flounder later.
    [Laughter.]
    We have a vote and I would like to hear the remaining two 
members testify. So what I would like to do is just recess for 
about 15 minutes.
    I would encourage everyone to take advantage of that break 
to socialize.
    [Laughter.]
    [Recess.]
    Mr. Gilchrest. The hearing will come to order.
    Thank you all for your patience.
    I don't think we will be interrupted again before we 
finish.
    Dr. Richmond, thank you again for the distance that you 
traveled to get here. You may begin, sir.

  STATEMENT OF ROBERT RICHMOND, PROFESSOR OF MARINE BIOLOGY, 
             MARINE LABORATORY, UNIVERSITY OF GUAM

    Mr. Richmond. Thank you very much, Mr. Chairman. I am very 
pleased to be here.
    My name is Dr. Robert Richmond. I am a professor of marine 
biology at the University of Guam Marine Laboratory and the 
past director of that research facility. And in that capacity, 
I served as the director of a Sea Grant program that we once 
had in Guam.
    I would like to thank the Chair and the members of the 
panel for the opportunity to testify here today and to 
recognize Congressman Underwood for his efforts on behalf of 
the region. Today I will be speaking not only for myself, and 
submitting written testimony of my own, but also from several 
key individuals.
    In that light, I would like to say that the testimony I am 
providing is at a regional level and, in that vein, recognize 
Delegate Faleomavaega and the American Samoa delegation, 
primarily Lelei Peau, the U.S. Coral Reef Task Force all-
islands group that has helped move this initiative forward.
    I have submitted written testimony on behalf of four other 
individuals:
    Mr. Patrick Tellei is the president of Palau Community 
College and was duly selected by the six institutions of higher 
education, namely American Samoa Community College, College of 
the Marshall Islands, College of Micronesia-FSM, Northern 
Marianas College, Palau Community College, and the University 
of Guam. Mr. Tellei was chosen as the Chair to represent all 
six of the institutions in an effort to pull together a 
regional Sea Grant consortium.
    I also have written testimony submitted from Mr. Noah 
Idechong, who is a member of the Palau National Congress. He is 
the Chair of a group called MAREPAC, the Marine Resources 
Pacific Consortium. And he was chosen among nine islands in the 
Pacific to represent the marine resource managers. He is also 
notable; he received a Pew fellowship in marine conservation, 
the Goldman Prize for Environmental Achievement, and he is also 
noteworthy for being featured in Time magazine in the year 2000 
special issue on Earth week as one of eight heroes of the 
Earth.
    Dr. Steven Amesbury is the director of the UG Marine 
Laboratory and was selected by the six institutions of higher 
education to be the administrative director of the proposed 
consortium.
    And also from Gerald Davis, a regional fisheries officer 
who serves on the governing board of MAREPAC.
    In addition, what I submitted is a rationale for the 
program, which was included in the packages and a communique 
that was put together by the executive officers of the six 
institutions of higher education, requesting consideration for 
a regional Sea Grant consortium.
    On their behalf and on my own behalf, I would like to speak 
strongly in support of the Sea Grant reauthorization bill and 
also the enhancement act that was being presented for 
discussion.
    As part of that, included in your package is a color map of 
the region that I am talking about. It is a fairly far-flung 
region and often difficult for people outside of the area to 
know what we're talking about. But it is an area that is 
composed of six major island groups; as I mentioned, American 
Samoa, the Marshall Islands, the Federated States of 
Micronesia, Guam, Palau, and the Commonwealth of the Northern 
Mariana Islands.
    Within this group, it is an area of ocean greater in size 
than that of the continental United States. It contains the 
greatest level of marine biodiversity of any areas within the 
U.S. and associated with the U.S.
    It is 99.9 percent water. It is interesting to note that 
all of these institutions have Land Grant status, and up to 
this date, there is still not Sea Grant status for an area this 
large.
    This is one of the requests of the group, is to take a look 
at the options and the opportunities, to look at the incredible 
interest from the region, the tremendous expertise in terms of 
traditional resource management that exists out there. We are 
looking at an area that has total cultural and economic 
dependence on the ocean.
    For example, I can point out one dive site in Palau alone, 
known as the Blue Corner. Anybody who dives knows it. It is a 
very famous spot. That one dive site generates over $2.8 
million a year every year to the people of Palau just on diving 
alone.
    We have seen in the last 5 years tremendous changes in the 
quality of the reefs in the region. Part of it is due to global 
climate change. We saw about 30 percent of Palau's corals 
disappear in a 2-month period. It is an area that is ripe for 
additional research, capacity building, community outreach and 
education.
    And I would like to point out that it is not only an area 
that could benefit tremendously from the kinds of services that 
can be provided by Sea Grant but also has a lot to offer in 
return in terms of unsurpassed expertise in the marine 
management field. We are looking at islands that have marine 
managers that can draw on a system that has been in place for 
at least a 1,000 years. If you compare that to the Magnuson-
Stevens Act, it has been around for a lot shorter time. We can 
see that the traditional systems of the Pacific have actually 
been more effective in resource management. Unfortunately, many 
of these have never had to deal with things like 
organophosphate pesticides and jet skis, and hence, we really 
need a marriage between Western science and knowledge and 
traditional knowledge, to be able to make this work out there.
    We strongly support--and every one of the bits of testimony 
that I brought from the other individuals from the region 
strongly support the Sea Grant mission, the goals of objectives 
in the program, and simply asks that this group as well as the 
administrators within NOAA and Sea Grant provide some guidance 
and assistance in moving the region forward in obtaining Sea 
Grant status.
    We realize that it is a long-term process and that there 
are steps to go through, but all of these institutions are 
committed to working together to try to make this happen.
    In the words of Noah Idechong, the Chair of MAREPAC, who 
has provided tremendous leadership to the region over the 
years, he pointed out that money doesn't solve problems, people 
do. In this case, money is a very important tool to be able to 
provide institutional support, to be able to provide research 
information, to provide educational outreach. But funding alone 
is not going to make the difference if the funds are not put 
into a place where they can have the most effect. And in this 
case, it clearly seems to be within the regional institutions, 
taking advantage of the knowledge that exists within these 
islands and the expertise that is there and to further develop 
it for the future.
    So on behalf of this group and behalf of myself, I would 
simply like to thank the panel for the opportunity to be here 
to express the deep interest in being able to become part of 
the Sea Grant partnership and to thank the panel and to be 
available for any questions you may have. Thank you.
    [The prepared statement of Mr. Richmond follows:]

 Statement of Robert H. Richmond, Ph.D., Professor of Marine Biology, 
                           University of Guam

    I am grateful for the opportunity to testify before your 
Subcommittee on H.R. 1071. the National Sea Grant College Program 
Authorization Enhancement Act, and the accompanying discussion draft 
entitled the National Sea Grant Program Act Amendments of 2001. 1 am a 
Professor of Marine Biology at the University of Guam Marine 
Laboratory, a past Director of this research institute, a council 
member of the International Society for Reef Studies. an Affiliate 
Graduate Faculty member in the University of Hawaii Zoology Department, 
a Research Affiliate of the Hawaii Institute of Marine Biology, and a 
member of the Science and Policy Advisory Committee of the newly opened 
Palau International Coral Reef Center. I also serve as the scientific 
advisor to the All Islands Group of the U.S. Coral Reef Task Force and 
was the director of the University of Guam Sea Grant Program from 1988-
91. I have worked with regional marine resource managers, educational 
institutions, community-based organizations and stakeholders in the 
Insular Pacific for over 20 years to collect and disseminate accurate 
and adequate information upon which appropriate management decisions 
can be made.
    I fully support the goals and objectives of the National Sea Grant 
College Program as important to the future of ocean resources. I have 
had the opportunity to review numerous proposals for the various Sea 
Grant College programs, and have been impressed with the contributions 
made using Sea Grant support. Effective partnerships between 
institutions of higher education and the private sector have been 
constructive, and some of the extension activities have helped educate 
the public and provide needed outreach services. I live and work in a 
region that is over 99% ocean and less than 1 % land. yet has been 
unable to draw much in the way of benefits from Sea Grant. In the past, 
this could be partially attributed to limited institutional 
capabilities within the region. but those days are over. The six 
regional institutions of higher education, American Samoa Community 
College. the College of the Marshall Islands, the College of 
Micronesia-FSM, Northern Marianas College, Palau Community College and 
the University of Guam have grown and developed over the past decade, 
have added highly trained faculty and researchers, built new facilities 
and are developing critically-needed marine curricula. Sea Grant has 
the potential to provide an essential framework to further develop the 
capacity of the islands to address critical marine resource management 
programs, but any such effort has to allow priorities to be set from 
within.
    I fully support an increase in base funding for the Sea Grant 
program as an investment in the future of U.S. marine resources. 
However, as we are all aware, money alone, if not properly allocated, 
achieves little in terms of deliverables. Funds provided by the 
Department of the Interior, Office of Insular Affairs were responsible 
for the development of the Marine Resources Pacific Consortium 
(MAREPAC), which has served as a model for participatory program 
development. Much has been achieved using limited but shared financial, 
human and institutional resources. Sea Grant could be a valuable 
partner in this effort at ensuring future generations have marine 
resources to use and benefit from. while striving to meet some 
immediately pressing needs. The members and governing board of MAREPAC 
have identified attaining Sea Grant Regional Consortium status for the 
six colleges as an important step in addressing marine resource 
management sustainability. I can attest to the fact the ability for 
success exists if the opportunity is offered. I join my colleagues in 
respectfully requesting the assistance and guidance of this 
Subcommittee in helping a region that has much to offer in terms of 
marine resources, biodiversity, traditional management skills and 
unsurpassed expertise. The future generations of the Pacific Islands 
need action now, and your consideration of the Sea Grant re-
authorization and enhancement acts comes at a critical time. I 
specifically ask that this Subcommittee consider a set-aside for the 
Pacific Islands Regional Sea Grant Consortium no less than 20% of what 
has been identified for Zebra Mussels, or Oysters or invasive algae. 
The region with the richest coral reefs under U.S. jurisdiction, the 
highest levels of biodiversity and with the potential for providing 
future pharmaceuticals of medical benefit should receive a higher 
degree of interest from Sea Grant than has been previously expressed.
    I thank you for this opportunity and would be happy to provide 
additional information and documentation as requested.
                                 ______
                                 
    [Attachments to Dr. Richmond's statement follow:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



    
    Mr. Gilchrest. Thank you, Dr. Richmond.
    Mr. DeVoe?

  STATEMENT OF RICHARD DEVOE, PRESIDENT, SEA GRANT ASSOCIATION

    Mr. DeVoe. Mr. Chairman, members of the Committee and 
staff, good morning. It is an honor and a pleasure for me to be 
with you this morning. And it is with great appreciation that 
the Sea Grant Association acknowledges your long history of 
support for the National Sea Grant College Program.
    I have submitted written testimony, and I am just going to 
summarize a few of the points that I provided in that.
    The Sea Grant Association represents the combined 
capabilities of over 200 universities and research institutions 
nationwide that participate in the National Sea Grant College 
Program. The Sea Grant Association enables these institutions 
to coordinate their activities, prioritize action at the 
regional and national levels, and to offer a unified voice on 
critical coastal, ocean, and Great Lakes issues.
    Just as our Nation's Land Grant institutions have 
revolutionized agricultural, so too are the Sea Grant colleges 
steering our Nation toward a productive and sustainable use of 
our coastal, ocean, and Great Lakes resources.
    Sea Grant is science serving America's coasts, or, I like 
to say, science for society's sake. It is a model Federal 
program that continues to make a significant and positive 
difference by ensuring through rigorous scientific inquiry, 
directed educational outreach, technology transfer, and a focus 
on economic development and resource conservation, that the 
Nation's invaluable coastal, marine, and Great Lakes resources 
will continue to provide quality-of-life benefits for present 
and future generations.
    More importantly, and I think you heard some of this today, 
Sea Grant touches the lives of what I would call real people, 
people from all walks of life and from all parts of the 
country.
    The National Sea Grant College Program was last 
reauthorized 3 years ago, after extensive review and with 
unanimous support of both houses of Congress through the Sea 
Grant Reauthorization Act of 1998. The Sea Grant Association 
strongly endorses the intent of both the Subcommittee's 
discussion draft and H.R. 1071 to substantially increase the 
authorization levels for Sea Grant above current levels.
    An increased investment in Sea Grant is an investment in 
America's economic future. Attempts to balance our booming 
coastal economy with its associated impacts on the coastal, 
marine, and Great Lakes environment have raised the stakes for 
effective government action.
    Note, for example, that America's coastlines span more than 
95,000 miles and its territorial sea covers 3.4 million square 
miles. Over half of the Nation's population of 280 million live 
in coastal counties that comprise less than one-fifth of the 
total land area of the United States.
    The economy of the Nation's coastal counties accounts for 
at least 30 percent of the domestic gross national product. 
Nearly 14,000 housing units are being built each week in these 
counties. Coastal tourism and recreation account for 85 percent 
of all U.S. tourism revenues.
    The oceans, in one way or another, account for one out of 
every six jobs.
    Tax revenues in coastal areas are among the fastest growing 
revenue sources for state and local governments. And by 2010, 
U.S. foreign trade in goods is expected to double to $5 
trillion, with oceangoing cargo increasing by 30 percent.
    In fact, the collective economic impact of the coastal 
economy far exceeds U.S. agriculture, yet Federal investments 
in Sea Grant colleges and universities, as it has been 
mentioned today before, are significantly less than Federal 
investments in the USDA's Land Grant college and university 
system, the program on which Sea Grant was modeled.
    A significant increase in Sea Grant's authorization levels 
will enable it to strategically enhance its investment in 
research, education, extension, and outreach programs that 
promote sustainable fisheries; encourage the development of 
responsible aquaculture; preserve, enhance, and restore 
coastal, marine, and Great Lakes resources; support quality 
community development in urban, suburban, and rural coastal 
areas; mitigate coastal hazards; create value through marine 
biotechnology; and expand public literacy.
    Mr. Chairman and members of the Committee, the Sea Grant 
Association has a vision for the National Sea Grant College 
Program; that is to become NOAA's primary university-based 
research, education, and technical assistance program for 
coastal, marine, and Great Lakes resources.
    As such, the Sea Grant Association offers the following 
comments and suggestions on the Committee discussion draft, 
H.R. 1071, and Sea Grant in general.
    First, Sea Grant Association respectfully recommends that 
the proposed authorization levels for Sea Grant in fiscal year 
2004 and beyond be significantly increased and strongly 
endorses the intent of both the Subcommittee's discussion draft 
and H.R. 1071 to substantially increase the authorization 
levels for Sea Grant.
    While extremely successful, the ability of Sea Grant to 
continue to meet the expectations of Congress has been limited. 
The growth of the National Sea Grant College Program has not 
matched the extraordinary growth in coastal population, 
development, and the demand for Sea Grant information and 
services. In fact, the Sea Grant budget has not kept pace with 
inflation over the last two decades, much less expanded to meet 
the wealth of new challenges and opportunities that face our 
country.
    The buying power of Sea Grant's current appropriation it 20 
percent less than the buying power of its 1980 appropriation. 
In fact, staff size of the 30 Sea Grant programs has declined 
by 25 percent from fiscal year 1986 to fiscal year 1999. You 
have heard the results of some of that, in terms of some areas 
of the coastline not receiving coverage, and the island states.
    We receive many more quality ideas and proposals than we 
can support at this time. And there are significant stretches 
of the U.S. coastline that receive little or no attention from 
our Sea Grant extension network.
    A second point is that the Sea Grant Association 
respectfully recommends that the Sea Grant reauthorization 
legislation include an escalating scale for authorization 
levels, as is the case with the current Sea Grant authorization 
and with that proposed in Section 212(a)(3) of the discussion 
draft. Adoption of this recommendation will allow the Sea Grant 
program to grow proportionally to increases in the cost of 
living and, more importantly, to be able to respond to an ever-
increasing demand for Sea Grant services and products.
    Third, the Sea Grant Association believes that the National 
Sea Grant College Program should be given the responsibility to 
manage the coastal ocean research program as identified in the 
discussion draft. The Sea Grant Association believes that Sea 
Grant can provide the necessary leadership and management in an 
increasingly complex programmatic arena and do so in an 
efficient and cost-effective manner. Placement of a coastal 
ocean research program within Sea Grant would represent an 
initial step to integrating NOAA's university-based coastal, 
marine, research, and outreach programs.
    And finally, the Sea Grant Association respectfully 
requests that the coastal ocean research program, if included 
in the reauthorization, be exempt from both the matching funds 
provision placed on core Sea Grant Federal funds and the 
payment on the receipt of Sea Grant funds by Federal 
scientists.
    Sea Grant by its very nature works in partnership with a 
variety of agencies and organizations. Exempting the coastal 
ocean research program from these Sea Grant requirements would 
allow the national Sea Grant office to develop and leverage 
research and outreach initiatives both within NOAA and with 
such agencies as the National Science Foundation, U.S. 
Environmental Protection Agency, and other Federal funding 
institutions that do not require matching funds and/or do allow 
participation by Federal scientists.
    In conclusion, we ask that the National Sea Grant College 
Program be provided with the full resources it needs to build 
on its record of success and promise. A reauthorization that 
matches both the immediate and long-term needs of all who live, 
work, and play along the Nation's coastlines and one that 
represents the initial step in achieving the Sea Grant 
Association vision.
    We look forward to working with you, Mr. Chairman, and 
members and staff of the Committee, on Sea Grant 
reauthorization. Thank you again for the opportunity to be 
here, and I would be glad to answer any questions you may have.
    [The prepared statement of Mr. DeVoe follows:]

    Statement of M. Richard Devoe, President, Sea Grant Association

    It is an honor and pleasure for me to be with you this morning, and 
it is with great appreciation that we acknowledge your long history of 
support for the National Sea Grant College Program.
    The Sea Grant Association (SGA) represents the combined 
capabilities of over 200 academic and research institutions nationwide 
that participate in the National Sea Grant College Program. The SGA 
enables these institutions to coordinate their activities, to 
prioritize action at the regional and national levels, and to offer a 
unified voice on critical coastal, ocean, and Great Lakes issues. Just 
as our nation's Land Grant institutions have revolutionized 
agriculture, so too are the Sea Grant Colleges steering our nation 
toward the productive and sustainable use of our coastal, marine, and 
oceanic resources, through integrated programs of scientific research, 
education and training, and technical assistance.
    The National Sea Grant College Program was last reauthorized three 
years ago, after extensive review and with the unanimous support of 
both Houses of Congress, through the Sea Grant College Program 
Reauthorization Act of 1998 (P.L. 105-160). The SGA strongly endorses 
the intent of both the Subcommittee's discussion draft and H.R. 1071 to 
substantially increase the authorization levels for Sea Grant.
    We respectfully suggest, however, that the amounts proposed may not 
be sufficient to address the myriad needs and opportunities that our 
coastal and ocean resources present. Some coastal areas under U.S. 
jurisdiction currently have limited or no Sea Grant Program coverage, 
while existing coastal and Great Lakes Sea Grant Programs receive many 
more high quality and relevant projects than they can fund. 
Additionally, there are significant stretches of the U.S. coastline 
that receive little or no attention from our Sea Grant Extension 
network of agents and specialists.
    An increased investment in Sea Grant is an investment in America's 
economic future. Attempts to balance our booming coastal economy with 
its associated impacts on the coastal and marine environment have 
raised the stakes for effective government action. By 2010, U.S. 
foreign trade in goods is expected to double to $5 trillion, with 
ocean-going cargo increasing by 30 percent. Coastal tourism and 
recreation account for 85 percent of all U.S. tourism revenues. The 
oceans, in one way or another, account for one out of every six jobs. 
Tax revenues in coastal areas are among the fastest growing revenue 
sources for state and local governments. In fact, the collective 
economic impact of the coastal economy far exceeds U.S. agriculture, 
and yet federal investments in Sea Grant colleges and universities are 
much smaller than investments in the Land Grant college and university 
system funded by the U.S. Department of Agriculture for agriculture and 
land-based natural resource activities, the program on which Sea Grant 
was modeled.
    The growth of the National Sea Grant College Program is not 
commensurate with the extraordinary growth in coastal population and 
development. In fact, the Sea Grant budget has not kept pace with 
inflation over the last two decades, much less expanded to meet the 
wealth of new challenges and opportunities that face our country. Sea 
Grant's appropriations are over 20 percent below the buying power of 
its 1980 appropriation. From fiscal year 1986 to fiscal year 1999, Sea 
Grant's program-wide staff size declined 25 percent.
    These trends prompted the National Research Council to comment in 
its 1994 review ``that (Sea Grant) needs additional funding to fulfill 
its potential... A steady increase in funding is necessary if the 
program's potential contributions to the nation's economic and 
environmental health are to be realized.''
    Sea Grant represents a terrific federal value. Sea Grant Programs 
are required to match $1 in non-federal funds for every $2 of federal 
investment. Actually, revenues spent on Sea Grant activities nationwide 
from all sources totaled $113.79 million for fiscal year 2001; the 
appropriation that year was $62.25 million. This highly leveraged 
investment in Sea Grant is crucial to ensure appropriate federal, 
state, local, university, and private-sector efforts to support and 
enhance our burgeoning coastal economy while conserving and protecting 
the coastal and marine resource base upon which it depends.
    A significant increase in Sea Grant's authorization will enable it 
to strategically invest in research and outreach programs that:
    Promote sustainable fisheries. Fishery landings have reached the 
maximum capacity of our oceans and coastal waters to produce fish. Sea 
Grant can collaborate even more with the National Marine Fisheries 
Service and the private sector to develop new approaches to fisheries 
management to conserve existing fish stocks and rebuild depleted 
fisheries. Sea Grant is uniquely situated to promote collaborations on 
subjects critical to decisions being made by fisheries managers on 
topics such as stock assessment, habitat and ecosystem health, 
environmental contamination, area management strategies, fish biology 
and behavior, climate change, management institutions, and conflict 
resolution. In addition, research and extension personnel can provide 
fisheries managers with the socioeconomic data and analyses necessary 
to manage fisheries using techniques that will allow for adequate 
economic returns, protect fish stock size, harvest at sustainable 
yields, and minimize the impacts on fishermen.
    Encourage the development of responsible aquaculture. The United 
States faces a seafood deficit amounting to $7 billion annually; it 
imports more than 60 percent of the fish and shellfish it consumes. 
Marine aquaculture has the potential to provide up to 25 percent of all 
seafood consumed by its citizens within the next 20 years, and provides 
the ``seed'' for rebuilding some fishery stocks. An example is the 
growth of the global shrimp farming industry. According to a recent 
USDA report, U.S. shrimp imports were valued at $3.8 billion in 2000. 
The value of imported shrimp, Atlantic salmon, and tilapia totaled $4.6 
billion. To put this in perspective, imports of these three 
aquacultured products in 2000 were worth as much as the combined 
exports of the U.S. broiler and hog industries. In addition, 
aquaculture of marine aquarium fishes represents a multimillion-dollar 
(and growing) market that can relieve fishing pressure on wild stocks, 
especially in coral reef habitats. Onshore, near-shore and offshore 
marine aquaculture offers vast potential for reducing the demand on 
wild fisheries. Sea Grant is particularly committed to enhancing this 
budding industry's development in a socially and environmentally sound 
manner.
    Preserve, enhance, and restore coastal, marine, and Great Lakes 
resources. Growth along the nation's coasts has exacerbated coastal 
pollution and associated problems such as harmful algal blooms, ``dead 
zones,'' nuisance species invasions, coral reef die-offs, and related 
effects. Sea Grant can determine the impacts of natural and man-made 
change on coastal, marine, and Great Lakes ecosystems, and develop 
innovative approaches to protect these habitats from further 
degradation and reverse the changes that have occurred. Sea Grant will 
emphasize the role of the land in determining the quality of coastal 
waters and will provide coastal managers with the scientific and 
technological tools they need to address regional and local problems.
    Support quality community development in coastal areas. Coastal 
communities depend on healthy ecosystems and economies for their 
survival. Research to better understand the inter-connectivity between 
the economy and the environment, and outreach to expand the scientific 
understanding of community planners, business leaders, and citizens, 
need to be greatly expanded. Among Sea Grant's assets are ready access 
to the university social science community (not available elsewhere in 
NOAA), an existing state and local infrastructure to deliver programs 
at the community level, and existing or emerging programs in such areas 
as waterfront renewal, brownfield redevelopment, tourism development, 
transportation planning, ports development, community non-point source 
pollution abatement, and planning and zoning, which all are catalysts 
for growth. Sea Grant's emerging Coastal Community Development Program 
will focus on helping communities that are experiencing a decline of 
their resource-dependent industries and/or are facing complex 
requirements associated with environmental regulation to develop 
robust, sustainable economies.
    Mitigate coastal hazards. Over the past 20 years, 44 weather-
related disasters with overall damage costs exceeding $1 billion each 
struck the United States. Thirty-eight of these occurred during the 
1988-1999 period with total damage costs exceeding $170 billion. 
Insurance companies paid out more than $91.8 billion in losses from 
weather-related natural disasters in the 1990s, close to four times the 
weather-related claims settled during the 1980s. Even so, some $2 
trillion in insured property currently lies within 30 kilometers of the 
Atlantic coast alone, exposed to the threat of hazard damage. 
Nationwide, coastal erosion is responsible for approximately $500 
million per year in property loss to coastal property owners, including 
damage to structures and loss of land. To mitigate coastal erosion, the 
federal government spends an average of $150 million every year on 
beach nourishment and other shoreline erosion control measures. Despite 
these efforts, over the next 60 years, erosion may claim one out of 
four houses within 500 feet of the U.S. shoreline. Sea Grant efforts 
can and will enhance preparedness and reduce losses of human life, 
property, and environmental resources from coastal natural hazards.
    Create value through marine biotechnology. As one of the fastest-
changing areas of modern science, biotechnology has revolutionized 
research and the economy. The recent completion of the human genome 
project has created a wealth of scientific and commercial opportunity. 
Though not yet well developed, the potential applications of marine 
biological technologies promise oceans of opportunity. An increased 
investment in this area is critical to enable marine researchers to 
apply today's rapid advances in molecular biology to the marine 
environment. Marine plants, animals, and microorganisms produce a 
myriad of unique biochemicals not found on land, and marine natural 
products derived from them have demonstrated potential to treat 
diseases such as cancer and inflammatory disorders. Even so, most drugs 
currently on the market have been derived from land-based organisms. 
There is a vast potential for developing new drugs from the sea. At the 
same time, these technologies offer equally important opportunities in 
the environmental arena. Molecular biology has provided environmental 
managers, seafood processors, and the aquaculture industry with an 
accessible toolbox that enables them to make better decisions on 
critical resource and economic issues. The next generation of 
technology for monitoring of biological processes and remediation of 
pollutants will be based on the application of these new biological 
technologies. Sea Grant has led the Federal effort to target 
biotechnology research to seek solutions to pressing problems, to 
develop novel applications, and ultimately to realize the immense 
economic potential of this emerging field.
    Expand public literacy. Virtually every serious study of national 
goals for the new millennium underscores the critical importance of 
education to national prosperity. The challenges facing this country 
require instilling environmental values, behaviors, and literacy in the 
decision-making public while developing a highly skilled, 
technologically capable workforce. Sea Grant efforts have and will 
continue to contribute to improving marine and aquatic science literacy 
by enhancing education among formal K-12, undergraduate and graduate 
students, and informal sessions with both children and adults. 
Increased value in marine and aquatic science education by the American 
public is critical to national security, economic development, and the 
overall quality of life for everyone.
    The purpose of the National Sea Grant College Program can be 
summarized in a single phrase: Science Serving America's Coast.
    Sea Grant science provides the technical understanding and 
underpinning of all it does. Research supported by Sea Grant is based 
on competition, undergoes rigorous peer-review, and is geared to 
address the many marine and coastal challenges and opportunities that 
face our varied constituencies. The federal investment in Sea Grant 
enables a nationally coordinated network embedded in the best research 
universities to apply unparalleled intellectual capital to address 
these problems and opportunities. Cost-effectiveness is enhanced by 
access to university management infrastructure.
    Sea Grant serves the nation in many ways. Sea Grant's unmatched 
access to local constituencies through its extension and outreach 
programs ensures that federal investment is targeted at relevant issues 
for the benefit of NOAA and other federal agencies, state and local 
governments, coastal environmental managers, local fishermen, other 
marine resource users, and the general public. This contact also 
provides an important conduit for recommendations back to Sea Grant and 
NOAA for needed research and improved policies and services. Sea 
Grant's non-regulatory and science-based focus has established the 
program as an honest broker among a wide range of constituencies. In 
addition, marine education programs supported by federal funds reach 
from kindergarten to marine-related business people to elder hostels. 
The matched federal investment also fills the enormous demand for 
expertise to tackle rapid growth, change, and pressure on coastal 
resources.
    Sea Grant is a national program addressing national needs. It is a 
partnership of and depends on partnerships among government, academia, 
business, industry, scientists, and private citizens to help Americans 
understand and wisely use our precious coastal waters and Great Lakes 
for enjoyment and long-term economic growth. This network unites 30 
State Sea Grant Programs, over 200 universities, and millions of 
people. Sea Grant is an agent for scientific discovery, technology 
transfer, economic growth, resource conservation, and public education. 
Study after study has shown that Sea Grant returns to the taxpayers 
many times its annual budget in goods and services. It is government as 
our citizens want it--visible, tangible, relevant, efficient, and 
effective.
    And Sea Grant focuses its attention on a myriad of needs and 
pressures that face the nation's coasts. America's coastal and ocean 
resources encompass an immense area with more than 95,000 miles of 
coastline and more than 3.4 million square miles of ocean within the 
U.S. territorial sea. Over half the nation's 280 million people live in 
coastal counties that comprise less than one-fifth of the total land 
area of the United States. The economy of these coastal counties is 
critical to the economic well being of the entire nation, providing a 
wide array of goods and services that account for at least 30% of the 
gross national product of the United States. Growth in population and 
economic activity in coastal counties is continuing with nearly 14,000 
housing units being built every week, resulting in a 25% growth in 
coastal counties since 1970. From 1996 to 2015, our nation's coastal 
population is projected to increase from 141 million to 166 million.
    Sea Grant's unique combination of research, training, outreach, and 
education have made it a national leader in such areas as seafood 
technology, aquaculture, invasive aquatic species, coastal habitat 
enhancement, coastal economic development, and coastal hazards 
mitigation. For example--
    <bullet> Scientists with the Haskin Shellfish Research Laboratory 
at Rutgers University were the first to produce tetraploid Pacific 
oysters in 1993, with support from Sea Grant and others, that resulted 
in a number of patents in the United States, European Union, Australia, 
and elsewhere. (Tetraploid oysters are used as broodstock to produce 
100% triploid oysters, noted for their sterility, fast growth, and 
superior meat quality.) Continuing research being conducted jointly 
with industry partners is focused on the development of disease 
resistant strains of American oysters, using the tetraploid 
technologies developed for the Pacific oyster. The implications of this 
research to the aquaculture industry and the restoration of the oyster 
resource in the mid-Atlantic are extremely compelling.
    <bullet> Sea Grant studies of sewage effluent plumes have led to 
revisions in pollution control, cleanup, and water treatment that will 
save Orange County, CA taxpayers $50 million over a thirty-year period. 
Lessons learned from these studies can be applied to other large sewage 
plants around the country.
    <bullet> Molecular approaches developed through Sea Grant-funded 
research at UCLA have provided new and rapid means of quantifying 
bacterial pollution in coastal waters. These novel molecular protocols 
allow the quantity of specific bacteria in a sample to be determined 
quickly and accurately. This is a valuable rapid-method tool for 
monitoring bacterial pollution of coastal waters.
    <bullet> Sea Grant has been instrumental in the development and 
construction of wetlands on all four coasts. Wetland loss mitigation 
strategies have both created and restored valuable wetlands, while 
allowing coastal development valued in excess of $100 million. For 
example, the largest wetland restoration and enhancement project in the 
United States was conducted in New Jersey and Delaware, involving more 
than 17,000 acres of salt marsh.
    <bullet> The high volume of crab wastes generated by crab 
processing plants in the mid-Atlantic and southeastern U.S. is of 
considerable concern. Most landfills will no longer take this dense 
tonnage because crab chum releases ammonia and nitrates that can seep 
through soil, potentially polluting shallow aquifers, streams and 
creeks. Researchers working with support from the National Sea Grant 
Marine Biotechnology Initiative and Maryland Sea Grant have developed 
industrial scale processes for remediation of crab waste. While 
composting of crab waste is feasible, greater profits can be realized 
from purified chemical products such as chitosan, a derivative of 
chitin that has numerous high value industrial uses. Using novel enzyme 
technologies, studies were conducted to discover how the structure of 
chitosan could be controllably altered to allow manufacturers to tailor 
its properties for a variety of uses. These efforts have led to patents 
and ChitinWorks, a new independent company focused on producing 
chitosan from crab waste, in Cambridge, Maryland.
    <bullet> A Texas Sea Grant extension specialist is developing a 
training program for the retail grocery industry aimed at significantly 
reducing the amount of seafood shrinkage (losses due to spoilage, 
contamination, mishandling, etc.), which costs the industry billions of 
dollars annually. The projected cost-savings of the program for the 
grocery industry could reach over a billion dollars a year.
    <bullet> More than 12,000 graduate and undergraduate students has 
been supported through Sea Grant research efforts. Sea Grant-supported 
students represent a major component of the nation's skilled workforce 
in government, academia, and the private sector. As senior level 
personnel leave the federal government, and given the critical shortage 
of skilled workers in agencies such as NOAA to replace them, Sea Grant 
support for student education and training is more important now than 
ever.
    <bullet> COAST: Operation Pathfinder, a Sea Grant-supported marine 
science program for teachers, has provided training to over 700 
teachers from the United States, Puerto Rico, and the Pacific 
affiliates. These teachers have trained, through in-service workshops, 
an additional 14,000 teachers, who collectively have the potential of 
reaching over 5.5 million K-12 students about the relevance of the 
nation's oceans and coastal resources.
    Thus, Mr. Chairman and members of the Committee, the Sea Grant 
Association offers the following comments and suggestions on the 
Committee discussion draft, H.R. 1071, and Sea Grant in general:
    The SGA respectfully recommends that the proposed authorization 
level for fiscal year 2004 be increased, and that Sections 212(a)(1) 
and 212(a)(2) of the discussion draft include an escalating scale for 
authorization levels as is the case with the current Sea Grant 
authorization and with those proposed in Section 212(a)(3). While 
extremely successful, the ability of Sea Grant to live up to Congress's 
original expectations has been limited, as described in the 1994 
National Research Council (NRC) review of the Program which concluded 
that ``Sea Grant combines research, outreach, and education activities 
to approach these issues of importance to society and provides a great 
potential resource to its parent agency, the National Oceanic and 
Atmospheric Administration (NOAA).'' However, the NRC goes on to say 
that ``(t)he great potential of the program has not been achieved, 
however, because of fiscal limitations '' Adoption of these 
recommendations will allow the Sea Grant Program to grow proportionally 
to increases in the cost of living and, more importantly, to an ever-
increasing demand for Sea Grant services and products.
    The SGA believes that the National Sea Grant College Program is 
more than capable to manage the Coastal Ocean Research Program as 
suggested in Section 212(a)(3) of the Committee's discussion draft. The 
Sea Grant Association believes that Sea Grant can and should become 
NOAA's primary university-based research, education and technical 
assistance program for coastal, marine, and Great Lakes resources. 
Placement of the Coastal Ocean Research Program within Sea Grant 
represents an initial step to consolidate NOAA's university-based 
research and outreach programs. The SGA concurs that Sea Grant can 
provide the necessary leadership and management in an increasingly 
complex programmatic arena and do so in an efficient and cost-effective 
manner.
    The SGA respectfully requests that the Coastal Ocean Research 
Program, if included in the reauthorization of the National Sea Grant 
College Program, be exempt from both the matching funds provision 
placed on all other Sea Grant federal funds and the ban on the receipt 
of Sea Grant funds by federal scientists. Sea Grant by its very nature 
works in partnership with a variety of agencies and organizations. 
Exempting the Coastal Ocean Research Program from these Sea Grant 
requirements would allow the National Sea Grant Office to develop and 
leverage research and outreach initiatives both within NOAA and with 
such agencies as the National Science Foundation, the U.S. 
Environmental Protection Agency, and other federal funding institutions 
that do not require matching funds and do allow participation by 
federal scientists.
    The Sea Grant Association respectfully requests that the Committee 
consider combining all NOAA university-based coastal, marine, and Great 
Lakes research and outreach programs, where appropriate, under one 
Assistant Administrator, and designate Sea Grant as the lead agency. A 
consolidated program and improved access to the Administrator will 
allow NOAA to better tap Sea Grant's unique grassroots contacts, its 
university brain trust, and its close working relationships with the 
scientific community and Congress.
    As you can see, Mr. Chairman and Members of the Committee, Sea 
Grant is not just another government program. It is Science Serving 
America's Coast, a program that makes a significant and positive 
difference in the lives of citizens who depend on our shorelines and 
oceans. Sea Grant makes a difference by ensuring that--through rigorous 
scientific inquiry, directed educational outreach, technology transfer, 
and a focus on sustainability--the nation's invaluable coastal, marine, 
and Great Lakes resources will continue to provide benefits for future 
generations.
    We ask that you provide the National Sea Grant College Program with 
the full resources it needs to build on this record of success and 
promise--a reauthorization that matches both the immediate and long-
term needs of all who live, work, and play along the nation's 
coastlines.
    The SGA looks forward to working with you, Mr. Chairman, and 
members and staff of the committee on Sea Grant reauthorization. Thank 
you again for the opportunity to testify before you this morning, and I 
will be glad to address any questions that you may have.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Mr. DeVoe.
    Dr. Evans, Dr. Richmond recommended a Sea Grant consortium, 
which would take in those islands in the Pacific--Guam, 
American Samoa, and so on--in an area that was basically larger 
than the continental U.S., which Mr. Underwood showed me on a 
map.
    Could you comment on that recommendation? Is that something 
you have thought about before in NOAA? Is it something that 
would be worth the commitment in time, money, and personnel?
    Mr. Richmond. The simple answer to your question--actually, 
all of those questions--is yes.
    We have been working on this with Dr. Richmond and others 
from the region for probably slightly in excess of 2 years now, 
I believe. The former NOAA administrator at a coral reef task 
force meeting and meeting with the governor of Guam had 
discussions on this subject, brought the message back to NOAA 
headquarters and to Sea Grant headquarters.
    And I think we have had an ongoing discussion, including 
providing some grant money to help fund the development of 
programs in the region.
    We all believe that the region could benefit by being a Sea 
Grant consortium. We believe that there are benefits to flow 
both ways, if you will, both toward the marine community--
    Mr. Gilchrest. Is this something that we need to put into 
the authorization?
    Are you close to actually implementing this type of 
consortium?
    Dr. Evans. I think that, you know, our experience in 
developing other Sea Grant programs is that it takes a number 
of years to work on. I believe you or one of the other members 
cited Pennsylvania and Vermont; we have active programs to 
develop Sea Grant programs in those areas.
    It tends to take a period of time. Oftentimes it begins 
with extension work. Program proposals are developed.
    I guess my sense is that we have a process that does work 
and has worked in the past and is currently working to bring 
states' and regions' programs into the national program. And my 
own inclination is that that program will work in this case.
    We have an ongoing dialogue with the folks in the region 
right now. In fact, we are currently sort of sitting here, 
waiting for the next funding proposal that will help move this 
process along. And we are prepared to offer some support, 
financial support, personnel-type support, of folks throughout 
the organization.
    So my inclination is to say that a legislative fix for that 
is probably not required, that we have adequate mechanisms 
already.
    Mr. Gilchrest. Dr. Richmond, do you think it is close to 
happening? Do we need a legislative fix? Is the process working 
in an orderly, prompt fashion?
    Mr. Richmond. Certainly, I would like to recognize Dr. 
Evans personally for having been involved in these discussions 
for the last 2 years. And thanks to him and the previous 
undersecretary, Dr. James Baker, we have seen some progress. We 
actually have a $200,000 grant that has been enabling us to do 
the first step, which was to bring the six institutions of 
higher education together in the Marshall Islands last May.
    Mr. Gilchrest. So that is a NOAA grant?
    Mr. Richmond. That was a NOAA grant, directly under the 
work that Dr. Evans and I were able to work together.
    The biggest concern has been raised--and since I am in the 
House of Representatives, I suppose I should be diplomatic--
that there--
    Mr. Gilchrest. Please, the more blunt and frank--
    [Laughter.]
    --and to the point you can be, the more helpful you will 
be.
    Mr. Richmond. Okay.
    Mr. Gilchrest. The more diplomatic, things will just float 
along and not ever happen.
    [Laughter.]
    Mr. Richmond. Okay. It's a deal.
    There is no question that there has been some very firm 
resistance to this idea for awhile.
    Mr. Gilchrest. Firm resistance from?
    Mr. Richmond. From certain administrators within the Sea 
Grant program. I don't think that it is necessary to go into 
all the details at this time. I will look to our delegate--
    Mr. Faleomavaega. Mr. Chairman, I think we should.
    Tell us who.
    Mr. Richmond. Bottom line, it has been that the director 
and the executive director of Sea Grant, certainly from our 
perspective, have been trying to block the effort of getting an 
independent Sea Grant program for the Pacific Islands.
    Dr. D. James Baker, when he was the director of NOAA and 
the undersecretary, met with a number of the regional 
representatives over a period of years, including Lelei Peau--
    Mr. Gilchrest. You are talking about making a distinct 
program for the islands in the Pacific, as opposed to an 
extension of the existing Sea Grant?
    Mr. Richmond. As opposed to a program underneath the 
University of Hawaii Sea Grant--
    Mr. Gilchrest. How do you feel about that?
    Mr. Richmond. It simply hasn't worked. I have been out in 
Guam for 16 years. I have worked with these islands on a 
regular basis. I can say there have been some very good 
successes. And it has been unfortunate, but I think there have 
been some failures as well.
    A lot of it has been that the decision-making process has 
been removed from the islands. Decisions have been based in 
Washington and Hawaii, thousands of miles away.
    For those of you who aren't familiar, it is a 7-hour plane 
flight from Hawaii to Guam. We are over the dateline. Just to 
give you the logistics, there are only 12 hours when the 
workweek on Guam overlaps with the workweek in Hawaii, due to 
the dateline change and the 4-hour time difference.
    So here we have people in Washington and Hawaii making firm 
decisions for the islands, and one of the things I have learned 
in 16 years of working in the islands is that I am effective at 
the technical level, but the bottom line is the decision-making 
process has to be made within the islands themselves.
    The Marine Resources Pacific Consortium, which started this 
out, is a group of regional resource managers funded by the 
Department of the Interior Office of Insular Affairs. And what 
it has done is put the decision-making process into the hands 
of the islanders themselves.
    The governing board is made up of two members of the 
institutions of higher education--that is Patrick Tellei from 
the Palau Community College and Yassai Yamada from the College 
of Micronesia-FSM; two marine resource management agencies; and 
then two nongovernment organizations, one from Palau and one 
from American Samoa.
    And what we found, I have been relegated to simply being 
the principal investigator, which is the appropriate position 
for me. My major responsibility is to make sure we have 
accountability and that we are doing everything by the rules. 
But all decision-making is made by a regional board that is 
made up of 60 percent ethnic Pacific Islanders; it is four 
ethnic Pacific Islanders and two ``Caucasians,'' haoles, 
whatever term you want to use.
    Mr. Gilchrest. What was that? Caucasian and what?
    Mr. Richmond. Haole.
    Mr. Gilchrest. Haoles.
    Mr. Richmond. That is the Hawaiian term.
    Mr. Gilchrest. Paleface.
    [Laughter.]
    Mr. Richmond. That'll work.
    [Laughter.]
    Mr. Gilchrest. I am trying to get out in the sun a little 
more.
    [Laughter.]
    Mr. Richmond. That model has been extremely effective. And 
that is not saying that there haven't been some mistakes made. 
But the good news has been that, as a region, the resource 
managers know what needs to be done. The people within the 
communities are so close to the marine resources that they know 
what their needs are.
    And since each of these islands has a different tenure 
system and a different cultural system, it is absolutely 
impossible for people outside of the islands and outside of the 
region to make decisions on what their priorities are. And that 
is our biggest concern, is that priorities need to come from 
within the islands, not from without.
    And I will speak specifically to the extension project: Not 
one of the institutions has identified an extension proposal as 
being the highest priority. They are concerned about building 
the institutions to develop a marine sciences curriculum to be 
able to train their own students. They are concerned about 
books in their libraries. They are concerned about equipment to 
be able to teach their own people how to deal with these 
pressing issues.
    Yet every time we come back to the executive director of 
Sea Grant with the proposals that are now being developed--the 
meeting we had last May was the first step. Step number two is 
a regional grant writing workshop, which should be held in Guam 
later this month, to develop a full-on proposal with the 
regional priorities, local priorities, and the identity of what 
the needs are in terms of equipment, supplies, and funding for 
individual positions.
    And that is where I think the disconnect has been; the tail 
is wagging the dog.
    We have cultures--for example, the extension agents in the 
region under the Hawaii system were all off-islanders, they 
were all Caucasians and haoles, with one exception.
    One exception was there was a Pingelapese individual who 
was the extension agent when that program was funded from 
Hawaii for Pohnpei. Maybe it sounds like too detailed, but 
because this individual from Pingelap, he doesn't speak the 
language of the traditional chiefs in Pohnpei, and that is a 
huge problem at the extension level.
    Extension has to be done at the local level where there is 
a respect for the local traditional system, being able to work 
with the chiefs. My role has been to train local individuals 
who do speak the right language and do understand the cultural 
nuances. They are the ones that are effective. I can't be 
effective in that role even though I have been there for 16 
years; actually, over 20 years in the region.
    So each of us has assets we can bring to the table, and 
that is where we look to Sea Grant as having tremendous assets 
and expertise.
    And I do need to clarify that often this has been portrayed 
as a problem between the University of Guam and the University 
of Hawaii, and that is simply not true. I am actually an 
adjunct graduate faculty member in the University of Hawaii, a 
research affiliate at the Hawaii Institute of Marine Biology, 
and we look to the University of Hawaii en toto as a tremendous 
regional resource. We are tapping into their library for 
document delivery to these remote islands.
    But this is the way it has been portrayed, and it is not 
the truth. The bottom line is that we have islands that have 
developed a tremendous capacity over the last 20 years. And it 
is just like someone being a 35-year-old with a family and kids 
saying, ``Gee, Dad, can I have the keys to the car?'' and 
hearing, ``No, you're not ready yet.''
    The question is, when will the islands be ready? From my 
point of view, the islands have been ready for quite a while.
    Mr. Gilchrest. I would like to be able to do that to my 
children--
    [Laughter.]
    --even though they are all away from home now.
    I think what we will do, I will move on. In fact, I think 
we will have several rounds of questions, but to keep it in 
somewhat of an orderly fashion, we might turn the lights on. 
But the red light doesn't mean your questions are over. We will 
continue to circulate, because I am sure there are many other 
questions that we have.
    But anyway, Dr. Richmond, I think it would be beneficial 
for us to continue to communicate. There are a lot of other 
things in Sea Grant that we want to pursue and implement and 
ensure, for example, Los Angeles has more than one, and some 
East Coast States have six, seven, eight, even nine, implement 
some of the concerns that they have.
    But this is a fascinating proposal that I would like to 
continue to discuss during the rest of this hearing and 
certainly beyond to see what type of either in-house solution 
or legislative fix above the increased authorization to ensure 
that there is sufficient Sea Grant agents out there connecting 
with the appropriate end-users to make a difference.
    Mr. Richmond. Thank you very much, Mr. Chairman.
    Mr. Gilchrest. I yield now to Mr. Underwood.
    Mr. Underwood. Thank you, Mr. Chairman. And thank you also 
for the opportunity to raise some specific issues as have been 
raised by Dr. Richmond and others.
    And I don't want to make too much of a point of it, because 
I think most of the key issues have been raised in this 
context, other than to say that you represent Guam or any part 
of the Western Pacific, and as you have indicated, the map 
there indicates that a substantial part of ocean--I believe in 
Mr. DeVoe's testimony, he had mentioned that there was some 3.4 
million square miles of EEZ. I think there is that amount in 
the region that we are talking about by itself, absent a 
concern of the coastal U.S.
    And we always talk a lot about attention to the Pacific 
Rim. And everywhere I go, whether it is in defense issues or 
strategic issues or economic issue, and certainly there is an 
intersection here between economic and environmental issues, 
and the kind of work that Sea Grant is doing, there is always a 
large part of discussion about the Pacific Rim.
    Well, technically speaking, the islands that we are talking 
about are not part of the Pacific Rim. They are actually the 
Pacific Basin; the rim is the surrounding part.
    The Pacific Rim is like the doughnut and the Pacific Basin 
is like the hole. And sometimes if you don't have the hole, you 
don't have much of a doughnut. And sometimes you don't pay that 
much attention to the hole. And I think, in many respects, that 
is what we are confronting as we struggle with this.
    I used to supervise Dr. Richmond as an academic vice 
president at the University of Guam, so he and I go back a long 
way. And one of the very first initiatives that actually we 
undertook, as a new academic vice president, he showed up in my 
office and said, ``Can you give me some money so we can start 
working on a Sea Grant proposal?'' That was a number of years 
ago.
    And I guess we never thought that we would intersect in 
this way today, under your guidance, Mr. Gilchrest. We are very 
happy to reach this particular point.
    I appreciate that there are a number of issues attendant to 
developmental questions about the progress of moving toward a 
full-fledged Sea Grant program. I am not unmindful of those. I 
think it is very clear that there are some issues attending to 
that, but I think the base commitment has to be there. And it 
has taken us awhile to get to that base commitment.
    And I trust I don't have to ask for a show of hands today 
for that commitment, because I think it is there. And I think 
it was mentioned in all the testimonies, in one way or another, 
that we to move toward this direction.
    Just generally, in terms of the legislation we are looking 
at today, which is to increase funding for the Sea Grant 
program, perhaps Dr. Evans can answer the question of, how can 
we move toward increased funding for the Sea Grant program when 
the administration hasn't even requested that the authorized 
amounts be spent for the upcoming fiscal year?
    Dr. Evans. Well, actually, I think the funding the Sea 
Grant program is sort of an interesting point of conversation. 
There has been, as you are well-aware, a long and checkered 
history of administration requests spanning a number of 
administrations, funding for Sea Grant.
    I think we all, collectively, both on the administration 
side and on the congressional side, should take some pride in 
the accomplishments of the last few years.
    In fact, in the last two congressional budget submissions 
from the President, the former President and the current 
President, requests for Sea Grant have been at or above the 
amounts of money that Congress had appropriated for Sea Grant 
in the previous year's appropriation. That is a precedent that 
had not been in place for probably 10 years prior to that.
    The Sea Grant program inside my part of NOAA, inside my 
part of the organization, has actually had a more rapid rate of 
growth for its overall funding than the other component pieces 
of NOAA research, the laboratory program, for example, or some 
of our other grant programs.
    So in an environment where there a lot of competing and 
worthy priorities, I think Sea Grant has actually done rather 
well, over the last couple of years in particular.
    I think the burden that we have all struggled with over the 
past, of having Congress appropriate more money and then the 
President requesting significantly less is behind us. I believe 
that the establishment of Sea Grant as a credible program 
inside our research portfolio is well in hand. I think that the 
program growth that the program has shown has exceeded those of 
other research areas inside NOAA. And I am pretty confident 
that we are going to continue down that path in the future.
    So rather than dealing with whether or not the amounts that 
the President has been able to request in balancing all of his 
priorities actually makes it to the authorized level, I think 
we really need to take a look at the progress that we have 
made.
    Mr. Gilchrest. Thank you, Mr. Underwood. We can come back 
as people have questions.
    Mr. Faleomavaega?
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    I certainly want to thank Dr. Evans for his eloquent 
statement. I can't believe for $62 million we deal with 
agricultural, aquatic nuisance species, coastal hazard 
reduction, commercial fisheries, education, marine 
biotechnology, seafood safety. For $62 million, that is a 
tremendous amount of things that Sea Grant has been doing for 
all these years.
    What is the annual budget of NOAA, anyway, Dr. Evans? What 
is the total budget that comes to NOAA every year?
    Dr. Evans. Approximately $3 billion in the current request.
    Mr. Faleomavaega. $3 billion?
    Dr. Evans. That is right.
    Mr. Faleomavaega. And what percentage of that goes to Sea 
Grant? $62 million out of $3 billion, right?
    Dr. Evans. It sounds like 5 percent.
    Mr. Faleomavaega. One-tenth of 1 percent perhaps? Something 
like that?
    I really, really am looking through your testimony. I like 
it. But, you know, when you mention aquaculture, do you mean 
marine aquaculture or--
    Dr. Evans. Yes, marine aquaculture.
    Mr. Faleomavaega. Okay. Because we just had a royal battle 
between the Department of Commerce and the Department of the 
Interior when we talk about fisheries. When a fish goes to a 
certain distance, it becomes a commercial issue, so, therefore, 
the Department of Commerce has jurisdiction. But if it goes to 
a certain distance, it goes through the fisheries and 
conservation of the Department of the Interior.
    And then they come out and say, well, we have to conserve 
it. I mean, we have a real interesting situation.
    And talk about coral, the same situation.
    Here's where I am coming from: Why are we having to import 
$9 billion worth of fish from foreign countries? And it seems 
to me that Sea Grant, if aquaculture could be one area that 
could create jobs, there is economic growth for our country.
    This is where I am coming from. I can talk about 
conservation also, but the bottom line is that other countries 
are way, way ahead of us, as far as marine aquaculture 
development is concerned.
    Am I wrong in this assumption?
    Dr. Evans. No, I don't think you are wrong at all, sir. I 
think that other countries produce quite a lot more than we do.
    Sea Grant really has led the way in building a broader 
aquaculture program that now extends beyond Sea Grant. We have 
other funds inside of NOAA research for supporting aquaculture. 
We have worked with the Department of Commerce to develop a 
policy position on fostering marine aquaculture throughout the 
country.
    I think we actually have some successes to point to that 
mostly have come out of the Sea Grant-led program. In the 
current year, for example, moving to another part of the 
Department of Commerce, the ATP program at NIST, actually 
awarded some $21 million for advanced development projects in 
aquaculture that have derived from the research activities that 
have been led by Sea Grant and other parts of our research 
activities.
    So the total amount of money that is being spent on 
aquaculture isn't necessarily confined just to the resources 
that are in Sea Grant. I think we have recognized, especially 
in the last couple of years and following on some conversations 
that you and I have had in the past, in fact, the importance of 
aquaculture and the importance of promoting aquaculture.
    One of the capabilities that Sea Grant brings to this, and 
that we have tried to encourage, is the development of what we 
call environmentally responsible aquaculture. Many of the 
countries that you cite, in terms of the large volume of fish 
produced in an aquaculture environment, have suffered very 
serious environmental consequences from the pursuit of their 
aquaculture programs.
    And one of the things that we are able to do through the 
Sea Grant research efforts is to develop technologies, 
methodologies, that allow us to grow our aquaculture industry, 
help supply this need for seafood domestically, and do it in a 
way that maintains the integrity of our coastal resources.
    Mr. Faleomavaega. Dr. Evans, you don't need to convince me 
about the importance of Sea Grant.
    With the seven major areas that you have cited in your 
statement, I trust that you would be one of our strongest 
advocates within the administration for increased funding out 
of the $3 billion that NOAA gets every year?
    Dr. Evans. I think that the programs that Sea Grant is 
engaged in are very, very important, and they are programs that 
I have responsibility for, so I am strong advocate for Sea 
Grant, funding, programs, and policies inside the 
administration, inside NOAA and inside the administration.
    Mr. Faleomavaega. One of the issues I wanted to also 
discuss, you know, American Samoa is not in the Western 
Pacific. It is in the South Pacific.
    And with due respect to Dr. Richmond and this consortium--
and I am now going through this--I believe Mr. Lelei Peau was 
involved with the coral reefs conservation, but not 
particularly with the Sea Grant program. And I don't want to 
get into this as just a Western Pacific hearing process, but I 
want to get the collective as a whole what the Sea Grant 
program can do for our country as a whole. Given the special 
needs of those of us who are from the islands, we can 
understand that.
    But more particularly to Dr. Knatz, we have over 100 
universities--200 universities throughout the country--how did 
we end up with only 30 universities being given this special 
status of a Sea Grant institutional authority. Is this 
discretionary authority of the Secretary of Commerce or is it 
through your panel? What is the process for being among the 29 
or 30 universities throughout the country being selected, like 
the University of Hawaii?
    Ms. Knatz. Well, the legislation does detail a process. And 
actually, the legislation tasks the review panel with the 
responsibility of advising the Secretary of Commerce and NOAA 
administration on the designation of new Sea Grant College 
Programs. So over a period of years, these applications have 
come in and a process has gone through that involves various 
steps and ultimately these programs were given full Sea Grant 
college status.
    I can comment specifically on the application that came in 
from the University of Guam. That is a good example. An 
application came in to the Secretary of Commerce, and the NOAA 
administrator at that time asked the panel to provide advice on 
designation of a new Sea Grant college.
    The panel set up a special Committee. It was chaired by Dr. 
John Toll from Maryland. I was actually the vice chair of that 
Committee. We had some outside members of that Committee review 
the application from the University of Guam, and we sent a 
report back to the NOAA administrator.
    And that report basically said that the Sea Grant Review 
Panel was very supportive of a program in that area, that we 
saw a great need for a program out there, but we felt at that 
time the application was a little incomplete because it was 
unclear about the governance structure for the program. It came 
from the University of Guam, and we wanted to make sure that 
all of the islands were somehow brought into the governance of 
the program.
    So we gave that advice back to the Secretary of Commerce, 
actually through the NOAA administration.
    And so that is a function of the panel. And then the 
designation then occurs, I guess--
    Mr. Faleomavaega. Am I to understand that the University of 
Hawaii was the regional institution that would have provided 
the needs for the colleges of the different island countries 
and territories?
    Ms. Knatz. Well, I know that as part, in the Hawaii 
program, because I have been out to visit that program, they 
have tried to do some things in the islands. There were some 
things done in the past. And I think that we recognized the 
fact that it is hard for Hawaii to service that entire area and 
have enough resources to do that.
    They can participate in Sea Grant activities in that area 
as well.
    Mr. Faleomavaega. My question was, in the past, the 
University of Hawaii was the regional institutional of Sea 
Grant granting authority for the island territories; am I 
correct on this? In the past and still is?
    Ms. Knatz. Dr. Baird informed me that they didn't have a 
formal responsibility to cover that area, but they made the 
effort to go out and do some things.
    Mr. Faleomavaega. So now the University of Guam wants to be 
a regional institution similar to the University to Hawaii. In 
other words, the 31st university within the system to be given 
that same equal status.
    Ms. Knatz. Right. Right, that was their application.
    Mr. Faleomavaega. Okay. There is absolutely nothing wrong 
with that.
    Ms. Knatz. No, there is nothing wrong with that.
    Mr. Faleomavaega. Okay. Now, my problem--
    Mr. Gilchrest. Mr. Faleomavaega, we will come back.
    Mr. Faleomavaega. All right.
    Mr. Gilchrest. Mr. Pallone?
    Mr. Pallone. Thank you. I wanted to ask a question of 
either Mr. DeVoe or Dr. Evans, I guess.
    I am very supportive of the National Sea Grant College 
Program Act, and I used to be part of Sea Grant at one time. I 
used to be an extension specialist within the New Jersey Sea 
Grant Program.
    But I wanted to ask about allocation because in my home 
state of New Jersey, I am constantly getting complaints about 
the fact that we are not getting enough money. And they look at 
statistics, like 18 percent of New Jersey's land is coastal, 
and we rank fifth in the Nation in that respect.
    And of course there is our economy. The coastal activity is 
very important to our economy. Fishing industries are valued at 
over $2 billion. Related to that is about $45 billion.
    And coastal tourism is obviously very important.
    But if you look at this chart in terms of all programs or 
programs in coastal states, we are almost at the bottom. If I 
could at California, which is $4 million; Massachusetts, $2.5. 
New Jersey is about the same size as Massachusetts, both 
geographically and population-wise, and we have more coastal 
area than Massachusetts, and we only get $780,000.
    So I am just wondering what can be done to change that. I 
have some ideas about maybe why it is happening.
    In New Jersey we may be somewhat unique in that we have a 
consortium. In other words, we don't have, say, Rutgers as the 
Sea Grant college or Princeton as a Sea Grant college. We have 
a consortium that basically administers the program. And all 
the colleges and universities are part of that consortium. And 
I get the impression that maybe that's the reason why we are 
suffering.
    In other words, a lot of the research money is going to 
particular Sea Grant colleges, and maybe because we have this 
consortium status and we don't have the research money going 
directly to the state university, for example, that that is one 
of the reasons that we are suffering.
    I think the consortium idea is a very good idea because it 
gets around the idea that just one university or one college 
gets all the money for Sea Grant research. And so it works well 
in New Jersey because all the colleges and universities feel 
very much a part of it.
    The other thing is, I don't know how you allocate extension 
versus research. I was in the extension program, and I think 
extension is very good, because you are right out there in the 
field with the people, with the marine users. And it bothers me 
that it seems that extension also is sort of suffering from 
this.
    I wasn't here earlier, but I think somebody talked about 
base funding, maybe there would be some minimum amount to every 
state for both research and extension.
    But I just would if the two of you would comment on this. I 
don't understand why New Jersey is so low, and whether in fact 
it may be linked to the things that I mentioned.
    Mr. DeVoe. I will begin, I guess, if that is all right.
    I think this is an issue that we are all familiar with. As 
well as being president of the Sea Grant Association, I also am 
the executive director of the South Carolina Sea Grant 
Consortium, so I am a consortium.
    We have 33 independent public universities and colleges in 
South Carolina. And our State Legislature decided, in order to 
provide equal opportunity for those institutions, to create 
this consortium framework to allow competition to occur among 
those institutions. I think it has worked quite well.
    I can answer you question a little bit from my perspective 
in South Carolina. The South Carolina Sea Grant Program started 
up in 1972. For its first eight or 10 years, it was relatively 
level funded. In the 1970's, there was rapid growth in the 
program, where some programs did better than other programs.
    So I think one of the things we are seeing today is, where 
the 30 programs lie now is a function somewhat of history, in 
terms of where they came from early on. And it does have a lot 
to do with the amount of appropriations that are available for 
the program as a whole over time.
    I feel, from my perspective, that South Carolina is also 
underfunded. I think I can speak for some of my other 
colleagues that they feel that their programs are underfunded. 
We are dealing with very critical issues, and not only issue 
but opportunities.
    And I think of this phrase that I have heard many times, a 
rising tide floats all boats. And I think if the opportunity is 
there to provide increased resources for the core Sea Grant 
program, then all of our programs that are all hurting, that 
are all having staff affected by not having the funds keeping 
up with demand and also inflation, I think we will all benefit 
from that.
    Mr. Pallone. I know the time is up, but just this concern 
that I have that extension gets the short shrift? And also, do 
you feel that by having a consortium that somehow because you 
are not putting these grants necessarily at a major university, 
that that is a factor?
    Mr. DeVoe. Your latter point, I don't think so.
    What is really interesting and unique about Sea Grant is 
that it is 30 programs and they are run according to the needs, 
demands, and culture of those states. I think a lot of that 
decision-making process occurs at that level.
    But overall, I do think that, again, if you look at my 
extension program, I am down two people from what I had five to 
6 years ago. So I don't think that the New Jersey situation is 
unique.
    Mr. Pallone. Dr. Evans?
    Dr. Evans. May just add one comment on that, with respect 
to the extension question?
    Half of the money that goes to the program is required to 
be spent on research. But beyond that, the decision on the 
break between how much goes into the research programs, 
education programs, and extension, it is really decided by the 
program itself. It is not decided by the national program 
office.
    Mr. Pallone. Okay.
    Dr. Evans. So somehow or another, that mix is a local 
decision. And how that decision is made and what comes of that 
decision, in fact, goes into the evaluation of the programs 
when they are all evaluated nationally.
    Mr. Pallone. Okay. Thank you.
    Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Pallone.
    Dr. Knatz, I think your recommendation for the 
reauthorization was $100 million. Part of the purpose for that 
was to increase the number of people in the Sea Grant program, 
and I think you said there were too few extension agents that 
would help you with things like essential fish habitat, 
subaquatic vegetation, dredging issues, expanding ports, and so 
on.
    Now, based on Mr. Pallone's question of the sort of 
distribution of where Sea Grant puts its program, its research 
programs and its extension programs, do you have any 
recommendation as to what California might do to sort of bring 
in more Sea Grant people to California, more than just one in 
the Port of Los Angeles? What can we do and what can California 
do?
    Ms. Knatz. I think like other programs, California, even 
though it is the largest funded Sea Grant program, has also 
suffered from the fact that their buying power is less than 
what it was. Their extension program is really stretched along 
that coastline.
    So I think a good chunk of this money needs to go to the 
programs as core funding, so they can use it for some of the 
basic services that they provide, including increasing the 
number of extension agents.
    Mr. Gilchrest. As part of a panel, have you put in to your 
report any specific recommendations? It is sort of like you are 
asking us for more money; we are asking you to ask for more 
money; we keep going back and forth like that.
    Did you make any specific recommendations to NOAA for them 
to ask in this reauthorization process for more dollars 
specific to Sea Grant and then specific to these extension 
agents?
    Ms. Knatz. Well, it is part of the panel policy--I think it 
has been for some time--that we wanted to double the Federal 
appropriations for Sea Grant. And I think the NOAA 
administration has heard that loud and clear from the panel for 
a number of years.
    Mr. Gilchrest. So when the panel has recommended doubling 
the appropriation or the authorization--
    Ms. Knatz. Right, the authorization.
    Mr. Gilchrest. Has there been specific recommendations to 
NOAA about actual formulation of policy for using those funds 
earmarked specifically for Sea Grant researchers here or Sea 
Grant extension agents? Or would you rather leave that up to 
the purview of the state?
    Ms. Knatz. No, in actuality, the review panel working with 
the Sea Grant Association has formed a Committee that we call 
the allocation Committee. And that Committee was looking at 
some of these issues that have already been raised here--the 
small states with the high populations; if we got a larger part 
of money, how would it be divided up among the programs in 
order to address the issues. And that Committee's work is 
ongoing.
    So we have not at this time given NOAA a specific 
recommendation for the $100 million, ``We want so much for and 
so much for that''--not at this time.
    Mr. Gilchrest. First of all, you would like another, at 
least, extension agent that you could have access to in Los 
Angeles?
    Ms. Knatz. Yes. I think my testimony made the comment that 
in the whole Los Angeles metropolitan area, there is only one 
now, which is not that much really. But there is none in San 
Francisco; the bay area has no extension agent.
    Mr. Gilchrest. Would you make any recommendation to us to 
see--can you work with NOAA or the state to increase that 
number? Is there anything you would suggest that we do to help 
increase that number?
    Ms. Knatz. Well, I think, you know, just the increase in 
overall budget. If you increase the core funding going to the 
programs, they will be able to provide for more extension 
agents. I would go to the California director and talk about 
what areas really need coverage the most and let's put the new 
money into putting somebody there. So I would work with him on 
that.
    Mr. Gilchrest. Would you agree with that, Mr. DeVoe? You 
said you lost two Sea Grant people over the course of the last 
year or so. Would you like to see them come back? Can you 
operate fine they way you are? Would you agree with Dr. Knatz 
about how to get those other extension agents back?
    Mr. DeVoe. I would agree with Dr. Knatz, yes. Again, the 
nature of the Sea Grant program is that it is this partnership 
between the Federal Government and the states and our 
stakeholders, our constituents.
    Each of our programs receive a lot of input from our 
stakeholders, what I call real people, as I mentioned before. 
Those are the folks who really help us decide the kinds of 
things we do.
    And then based on that input, we decide how to allocate the 
resources we get to address those programs or opportunities 
that our stakeholders have identified.
    So I think, again, the rising tide floats all boats thing 
applies here, where if there were more resources available, 
that they could be available to the state core programs. And 
through the core programs' process of identifying issues and 
opportunities, they can allocate those resources among 
research, among extension, education, that sort of thing.
    Mr. Gilchrest. I hear you saying that it might even be 
better from your perspective for the Sea Grant program to just 
have a larger, maybe up to $100 million authorization, and 
hopefully you can convince the appropriators, but you would 
rather not see us designate a specific formula for research and 
agents or a specific number of extension agents, but just 
increase the dollars.
    Mr. DeVoe. Yes, sir, I would agree with that.
    And if I could mention, we are not just asking for an 
increased authorization for appropriations because we are good 
people--although that's part of it.
    [Laughter.]
    Mr. Gilchrest. We were assuming that.
    [Laughter.]
    Mr. DeVoe. But we have worked together, the panel, the 
national Sea Grant office, the state Sea Grant programs, and 
the staff, on putting together a series of thematic one-pagers, 
we call them. And these identify nine programmatic areas that 
we worked on to identify what we would do with increased 
authorization and hopefully increased appropriations level.
    So we have a plan, and we know what we want to do.
    In terms of the implementation and the details, that is 
what I am referring to, those things can be dealt with 
principally through how the state Sea Grant programs want to 
implement their plan.
    Mr. Gilchrest. Thank you. And we will take a look at that.
    Mr. DeVoe. Good.
    Mr. Gilchrest. Mr. Underwood?
    Mr. Underwood. Thank you, Mr. Chairman.
    Just for the record, I would also like to introduce into 
the record a communique from the PAIRS organization, which 
basically is a statement about the regional collaboration on 
this ongoing effort to establish a Sea Grant in the Western 
pacific.
    Mr. Gilchrest. Without objection.
    [The information referred to follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Underwood. And also, just for clarification, sometimes 
we use regional terms kind of loosely, and sometimes people say 
South Pacific when they really mean Western Pacific.
    And actually, there is only one South Pacific entity, and 
that is Mr. Faleomavaega. The rest of the other island entities 
are in the North Pacific, because we are north of the equator. 
And sometimes we just loosely refer to it as the Western 
Pacific.
    Mr. Faleomavaega. Northwest.
    [Laughter.]
    Mr. Underwood. All right, Northwest, the great Northwest.
    [Laughter.]
    I want to ask a question on evaluation. I know Dr. Evans 
and Dr. Knatz have both referred to the issue of evaluation and 
that in evaluating the existing Sea Grant programs, I think 22 
have been evaluated and 16 have received excellent ratings.
    Dr. Knatz, is that correct?
    Ms. Knatz. I don't recall. I gave some numbers, and that 30 
programs have now been evaluated by the panel and 16 of those 
received an excellent rating.
    Mr. Underwood. Okay.
    Ms. Knatz. Out of 30.
    Mr. Underwood. Sixteen out of 30.
    And I assume that part of the evaluation process is the 
fact that they are behaving in a collaborative way with their 
stakeholders and that in fact working toward consortia type of 
arrangements and that is a central feature of these. Am I 
correct in assuming that?
    Ms. Knatz. Yes.
    Mr. Underwood. Okay. For the ones that didn't make the 
excellent rating, what kind of recommendations do we have? And 
are some of those items related to that specific issue of 
collaboration with regional entities or consortia-type 
arrangements? Or did they have any other kind of problems that 
you could make general statements about which would be helpful 
to the Committee, in terms of drafting legislation?
    Ms. Knatz. Each of the programs that was evaluated got a 
separate letter with a list of specific recommendations. I can 
generalize about a few of them, but they were really tailored 
for each program.
    For some of the programs, for example, we asked them to 
expand the number of stakeholders on their advisory Committee, 
because as part of the planning process for dealing with the 
issues in that state, we expect the programs to interact with 
the community, with the stakeholders, with local government. In 
many of our reviews, we have asked that that issue be 
addressed.
    We have also asked that some of the programs develop more 
thorough strategic plans. We expect them to be looking out 
toward the future--what are the issues in the marine and 
coastal policies that they are going to have to deal with--and 
position themselves so they can do that kind of work.
    So a number of the programs got recommendations along that 
line.
    We always also encourage the programs to develop regional 
collaborations, and many of the programs have done that. And I 
can't recall any specific recommendations on any of the 
programs I was involved with in that regard, but we split up. I 
haven't done all 30. I have done a smaller group of them, and 
we kind of share the workload among the panel members.
    Mr. Underwood. Okay. Dr. Evans, do you have any 
recommendations regarding the results of these evaluations that 
would be useful to the Committee?
    Dr. Evans. I think that they have prepared a document that 
gives a summary of the--let me just ask Dr. Knatz.
    You have just completed an evaluation of the first round of 
program evaluation processes. Is there a document that is 
available on that yet?
    Ms. Knatz. Yes, there is a document on our evaluation 
process that the panel is going to act on at our meeting later 
on today. So we do continually go back and look at the 
evaluation process and fine tune it and do that.
    We also prepare an annual report, kind of a state of Sea 
Grant. And we are just getting ready to develop our annual 
report for this year. This goes to the Secretary of Commerce.
    And that annual report will provide kind of a summary of 
what the evaluations were and other panel activities. But, 
frankly, I can't think of anything from that report that would 
be appropriate for legislation. Most of those things are things 
that the panel can revise in our own procedures ourselves.
    Mr. Underwood. Well, I guess what I am trying to get at is 
that if in fact consortia-type arrangements are a central 
feature or a problem in terms of the programs undergoing 
evaluation, then that could be reemphasized in the 
authorization. And I am just trying to search out whether there 
are particular problems or commonalties in your evaluation that 
would inform the Committee so that could be addressed. Or are 
they so idiosyncratic or are they just poorly managed programs? 
I mean, there are a whole number of issues that conceivably be 
part of the equation.
    I just want to get a sense because the consortia issue, I 
think Mr. DeVoe proclaimed that he was a consortia in his 
testimony, and that seems to be a central feature here, and I 
just wanted to get a sense whether there was some programmatic 
element or some emphasis needed to be given there.
    Dr. Evans. Let me comment on the evaluation process. The 
evaluation process was put in place in the last authorization 
for the Sea Grant program. And the process that Dr. Knatz was 
talking about is the way that the panel has recommended, and 
the national office has tried to implement that evaluation 
process.
    I am personally anxious to see the report. I know that they 
have done it, and I have seen some drafts of their evaluation 
of how well that process worked. This is something that really 
was new for the Sea Grant program, to provide a kind of 
comprehensive national evaluation of the programs like this.
    In the reports that I have seen, in the individual program 
evaluations that I have seen, and in the study that they have 
done of their own process, nothing leaps out.
    Mr. Underwood. Okay.
    Dr. Evans. I haven't seen one single fact that is common to 
lots of programs and where we need to have sort of a national 
fix. These have been individual program reviews against a 
standard set of criteria, and some programs are stronger in 
some areas and weaker in others.
    And I think the panels have done a good job of trying to 
identify them on a program-by-program basis.
    Mr. Underwood. Okay. Just a quick question, if I could, Ms. 
Dalton, Mr. DeVoe. Obviously, there is great support for 
increasing the overall amount spent for Sea Grant. Is there any 
support for the notion of increasing the matching share? Or do 
we like it the way it is now?
    Ms. Dalton. Increasing the percentage? I think we would 
support it at the level that it is now and possibly making 
additional competitive grant funding without a match.
    Mr. Underwood. Okay. Very good.
    Mr. DeVoe. I support that statement.
    Mr. Underwood. Very good. Succinct.
    [Laughter.]
    That's what I like.
    Mr. Gilchrest. Thank you, Mr. Underwood.
    Mr. Faleomavaega?
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    I wanted to offer this suggestion to Dr. Evans. I am a 
generalist; I don't get into micromanaging the situation.
    But this is my offered proposal for authorization: First 4 
years, $100 million; then the 3 years after that, $200 million 
per year; and then the remaining 3 years, $300 million per 
year.
    It still comes out substantially much less than what the 
Land Grant institutions get per year, so I think that is a very 
reasonable numbering, don't you think, Dr. Evans?
    [Laughter.]
    Dr. Evans. I think that the Sea Grant College Program would 
have no difficulty spending that kind of money if it were made 
available to them.
    [Laughter.]
    Mr. Underwood. Well, with such a tremendous amount of 
resources in the seven major areas that the current Sea Grant 
program is now weighing, with 54 percent of our Nation's 
population living in coastal states dealing with environmental 
issues, commercial issues, things that will allow the American 
people to make an honest living--it so wide.
    And I can understand why Land Grant was such an important 
institution because our country was basically an agrarian, 
agricultural nation. And those members who represented the 
rural areas, in their ingenuity and genius, came out with the 
Land Grant system to assist those institutions, which I support 
very much.
    But I think, now that this is the beginning of the 21st 
century, we have to look now at that situation very seriously, 
about the fact that what we do with ocean or the marine 
environment and the resources available where our country or 
our citizens could also benefit.
    So I am throwing that out for a starter, to see what we can 
come up with. There may be recommendations also from Mr. DeVoe 
and Ms. Dalton and Dr. Knatz. I am just throwing this out for 
digestion, okay?
    On the question of subjectiveness of evaluations, I am a 
little troubled by this. Am I to understand that there is no 
statutory mandates or guidelines or criteria that a university 
can then--let me ask you this: What does a university get once 
it is selected by the Secretary of the Interior to be a 
regional Sea Grant institution, like the University of Hawaii? 
Among the 30 universities, what do they get initially as Sea 
Grant institutions?
    Dr. Evans. There is no specific formula. They receive that 
designation and they can submit proposals as part of the annual 
process, but there is no specific formula. There is no 
entitlement, as it were.
    Mr. Faleomavaega. I see. So among the 30 institutions, they 
have to compete themselves for whatever grants that are 
available of the $10 million pittance that we are dealing with 
that they have to divide among themselves; am I correct on 
this?
    Dr. Evans. The funding for the individual programs is 
really based on, I would say, largely on the evolution of the 
programs, when they came into the program, their traditional 
amounts of funding, the amounts of the funding that they had in 
the previous year--they tend to be operated like many 
government programs, with sort of incremental funding 
applications. There are competitive funds that programs can 
request.
    But the basic funding the programs is that which has been 
established through the tradition, when they came in. There is 
sort of a long history that predates me in the program by a 
significant amount.
    One of the things that has been added in the recent time, 
however, as a part of the competitive process, is that their 
increments--that is, the amount of money that goes into the 
base program--is influenced by how well they do as a part of 
this evaluation process.
    Mr. Faleomavaega. So as a contrast, the 30 university 
regional institutions that are part of our Sea Grant program, 
how does that compare to the 4-year colleges that are granted 
Land Grant status? We are talking about hundreds of Land Grant 
colleges that do participate; am I correct on this?
    Dr. Evans. I actually don't know.
    Mr. Faleomavaega. I would like to ask if we could put that 
in the record.
    Dr. Evans. Sure thing.
    Mr. Faleomavaega. This is my next question, if it is all 
right with the Chairman. I know my time is about ready to be 
up.
    It is a natural why Land Grant is given over a $1 billion, 
because we are talking about hundreds of universities and 4-
year colleges that participate in the program.
    One of the things that probably you are not aware of--this 
is something that single-handedly the late Congressman Phil 
Burton literally unilaterally by legislation--and I will never 
tell how he did it--two-year colleges to become Land Grant 
institutions, when for 100 years before that, you had to be a 
4-year institution in order to qualify to become a Land Grant-
status institution. Are you aware of that?
    This is how the community colleges in the islands became 
Land Grant institutions, because of this one man, Phil Burton 
from California, that did this.
    Now, in contrast--and I think perhaps this is one reason--
we are somewhat restrictive in giving only 30 universities to 
be given these programs. Is it because of the small funding? Or 
is it perhaps, if we get more funding, we can get more 
universities and colleges also to participate similar to the 
Land Grant institutions?
    Dr. Evans. The 30 programs that we refer to really are 30 
programs, but there are, I believe, over 200 colleges and 
universities that participate in the Sea Grant program. The 30 
institutional arrangements that we have provide for local 
administration of those programs.
    So that, for example, the proposal that we are working on 
now for the Pacific Islands would involve a number of 
institutions, but there would only be one program there that 
would be collectively managed among them.
    And whether done as a consortium or whether done with a 
single lead program in a state to which other institutions can 
then apply, there are about 200 that are involved now.
    Mr. Faleomavaega. That one program comes under the 
University of Hawaii; am I correct?
    Dr. Evans. There is a program at the University of Hawaii.
    Mr. Faleomavaega. For the Pacific region?
    I am sorry. My time is up. I will get back to you.
    Dr. Evans. Not formally. I don't think that the University 
of Hawaii has been designated or granted authority to be the 
umbrella program for the Pacific. I don't think that is the 
case now or it ever really has been the case.
    They are a state program, and in the course of doing their 
work, they have done work throughout the Pacific. But that is 
different than having a lead program in a particular state to 
which other state institutions would then apply as part of a 
consortium.
    Mr. Faleomavaega. I am sorry, Mr. Chairman. My time is up. 
I will come back again.
    Mr. Gilchrest. That is all right, Mr. Faleomavaega.
    Dr. Evans, I understand there is going to be an oyster 
research summit next fall, dealing with Chesapeake Bay oysters. 
And I would just like to recommend that the summit either be 
held in Chestertown, Maryland--
    [Laughter.]
    Actually that is where Dr. Toll lives, the president of 
Washington College, which is a sort of a hook into bringing it 
to Chestertown, besides the fact I live 10 miles north of 
there.
    [Laughter.]
    Or it could be held in Annapolis. But just those two 
suggestions.
    Could you, though, on that topic, give us some type of idea 
about what your priorities are for oyster research?
    Dr. Evans. The oyster research program, as you know, has 
been going on for about 10 years, and I think the program has 
already spent about $17 million, I think.
    I think that work has proceeded in the past on a number of 
problems dealing with disease, several different kinds of 
disease; dealing with genetic problems and trying to develop 
strains which are resistant to disease and which will be 
productive. There has actually been some pretty significant 
progress made on that front in recent times, with the 
development of triploid oysters, dealing with better meat 
production, and avoiding some of the difficulties that one can 
encounter with genetic mixing of introduced stocks.
    The purpose of the meeting, as I understand it, it is 
supposed to happen in the spring--
    Mr. Gilchrest. This coming spring.
    Dr. Evans. The information I was provided was that this 
summit is supposed to occur this spring.
    Mr. Gilchrest. I can make some great recommendations for--
    Dr. Evans. For spring locations as well?
    Mr. Gilchrest. --certain locations, restaurants.
    [Laughter.]
    Dr. Evans. Okay.
    I think the program would probably welcome that kind of 
advice at this point.
    Mr. Gilchrest. I guess what I am asking is, as research 
goes forward, and there has been a great deal of money spent on 
it, and I know there has been a growing understanding about 
disease and resistant oysters and so on, is the research basic, 
general research as you continue this process as to how an 
oyster can survive? Is the research oriented toward developing 
an oyster that can be harvested for human consumption? Or is 
research more oriented toward how you develop an oyster that 
can survive disease and be a part of the filtering action of 
the whole physics of the system in the Chesapeake Bay? Is there 
any of that being discussed?
    Dr. Evans. I think that actually all of those issues are on 
the table. There is work that has been done in looking at the 
disease, the natural occurrence of the disease, the causes of 
it. There is work, as I indicated, on the aquaculture side and 
developing resistant stocks and how they would be distributed. 
I think there is general ecosystem work that has taken place, 
recognizing the importance of oysters and filter feeders for 
maintaining the health of the bay overall.
    All the aspects of that program have been addressed.
    My understanding that the reason for having the summit, 
actually--
    Mr. Gilchrest. And the summit is with whom? All the other 
parties that are involved in the process of oyster restoration?
    Dr. Evans. That is right.
    Mr. Gilchrest. That would be the universities of Maryland, 
Virginia, Department of Natural Resources, the private sector?
    Dr. Evans. Yes. My guess, and I haven't talked in detail to 
the program people who are planning it, is that there will be a 
rather wide call for the summit. It really is to take stock 
after 10 years of work and pretty substantial investment of 
what we have learned, what are the appropriate next steps, sort 
of a priority-setting and regrouping at this point.
    Mr. Gilchrest. I see.
    Dr. Evans. I think the scientists feel that they have made 
some real progress and it is time to kind of consolidate that 
progress and set a course for the continued work.
    Mr. Gilchrest. That can all happen in Chestertown.
    [Laughter.]
    Just another quick question. Ms. Dalton, part of your 
testimony gave five important areas of Sea Grant. One of those 
important areas that has sort of been a theme throughout the 
testimony we have heard this morning is education, using a Sea 
Grant fellow, the Sea Grant program, to get the information to 
people on the ground that will make good use of it, hopefully 
the end-users.
    As agricultural extension agents, they come from 
universities that have really become a part of the fiber of the 
whole community of agriculture and they have made significant 
progress with improving farming practices. That is often 
referred to as the seed corn of the next generation.
    Emerson had a similar quote: a thousand forests from one 
acorn.
    Would you make any suggestions or recommendations for the 
part of the Sea Grant program that deals with the extension 
agents that have been referred to here this morning that are so 
valuable that can not only get into the communities of the end-
users--in some cases, recreational fishermen, commercial 
fisherman, the ports that dot our coastline--and certainly into 
the public schools, where Dr. Knatz made a comment that rings 
true here in Maryland as well: prepare the students for the 
test so the school gets more money and bypass the unique 
ingenuity of a school teacher to bring that diversity into the 
classroom.
    What can you tell us this morning about that Sea Grant 
agent and what value they are and how you might improve upon 
it?
    Ms. Dalton. I guess we would probably view the extension 
agents and the education program as two separate components.
    One of the things that we are beginning to talk to the 
national Sea Grant program about, from a CORE perspective, is 
the National Science Foundation is trying to put together 
centers of excellence in elementary education, and they have a 
proposal out on the street. One of the things that we love to 
see is for other Federal agencies to go ahead and join in that 
effort and really be able to develop a national program.
    Right now, the National Science Foundation has about $1.5 
million available that would fund a national center and then 
two regional centers. There is interest in the community for 
probably at least six or seven of those centers around the 
country.
    And it is very possible that Sea Grant could play a key 
role in helping those regional centers go forward.
    In terms of extension agents and working with fishermen, 
one of the things that we are very interested in, in my former 
incarnation, is developing closer cooperation between the 
National Marine Fisheries Service and Sea Grant in how they 
provide outreach and public education. Not that one of them 
replaces the other, but they work in a complementary fashion.
    National Marine Fisheries Service badly needed to improve 
its outreach. And we were interested in working more closely 
with Sea Grant to not replace them or not compete with them but 
so that what you got is a better understanding the outside 
community of what was going on, the need for Federal 
regulations, and also improvement in the effectiveness of those 
regulations.
    Mr. Gilchrest. I only have 15 seconds, fellows.
    NMFS will sometimes, depending on the coastal area, have an 
observer on a boat to collect data. Would there be any value in 
including the Sea Grant agent as part of that process to 
collect data?
    Ms. Dalton. I don't think you want to drag Sea Grant into 
the regulatory arena.
    Right now, they are honest brokers. They have an enormously 
valuable role to play in helping--
    Mr. Gilchrest. Almost separate from the regulatory part, 
but just raw data, just how many fish are out there.
    Ms. Dalton. They do work and go on fishing vessels and help 
collect the data. They also, in the situation of sea turtles in 
the Southeast, it was Sea Grant extension agents and 
researchers that developed all of the initial turtle excluder 
devises that actually worked.
    So they already do play that role, and it is an integral 
part of the Sea Grant program.
    Mr. Gilchrest. That's great.
    Mr. Underwood, Mr. Faleomavaega, follow-up questions?
    Mr. Underwood?
    Mr. Underwood. Yes, thank you.
    Not to beat this seahorse to death--
    [Laughter.]
    I know, Dr. Evans, as you were trying to characterize the 
Hawaii program, the program at the University of Hawaii, that 
it was necessarily a Pacific region program, but it was a state 
program that took on I guess the elements of a Pacific program. 
That is a fair assessment of what you said earlier, is it not?
    Dr. Evans. Yes, it is.
    Mr. Underwood. Okay.
    Dr. Richmond, could you just describe to the Committee what 
was the nature of the decision-making process, as you 
understood, and the level of interaction and authority or 
participation, including the University of Guam, of the 
community colleges in the Micronesian region, in terms of their 
participation and the decisions that were made at the Sea Grant 
program at the UH?
    Mr. Richmond. Generally, we had some input but were 
excluded from the decision-making process.
    As a matter of fact, I just had a discussion with Dr. 
Steven Amesbury, who is the present director of the marine lab, 
who proceeded me also on the rotation, and he was actually 
asked to step out of the room when the decision-making was 
going on.
    In retrospect, he began to wonder if that was even legal 
under U.S. law because it is a Federal program.
    But when I was the director of the Sea Grant program, it 
was very much the same thing: You can come to the meeting, you 
can have some input, but when the decisions were made, please 
leave the room.
    I think this gets to the bigger issue, again, of a very 
sensitive development of this consortium of island 
institutions, to make sure that every institution gets to 
select what they want and set their own priorities.
    And Delegate Faleomavaega is absolutely correct. In Lelei 
Peau's situation, he is the chair of the all-islands group. 
That group has really set a good precedent of recognizing 
equality among institutions, equality among islands, that 
nobody is a position to tell another island what their 
priorities are, but rather to work as a group and that there is 
power in numbers.
    And as Mr. DeVoe has said, high tide floats all boats. The 
understanding here is that the islands do better together as a 
region. Instead of competing with one another, we are working 
together.
    And that has really been the way in which this has 
developed. From looking at one program at the University of 
Guam, quite frankly, I had recommended against it, saying, why 
would you have a Sea Grant program from one small university 
with a very limited group of people? But in 1999, in the 
Federal Register in January, there became this new regional 
consortium opportunity, and that is when we jumped on it.
    It was to recognize that here was an opportunity for all 
six institutions to be equal partners. The way the governance 
plan has come together is each institution is represented. It 
was Salu Hunkin at the time, the president of American Samoa 
Community College, an invitation simply said, ``Do you want to 
participate?'' And the answer was yes. The same invitation went 
out to all the regional colleges, and it was their decision to 
participate.
    And at the meeting we just had, all institutions were 
represented, and that is really the concern I have, is that I 
don't want another repeat of the University of Guam becoming to 
the other institutions what we felt this system had been to us.
    So what we have tried to do is put in checks and balances 
where everybody is equally represented, and the strength of the 
region is in, as Dr. Baird had pointed out, to remove 
redundancy in administration. You don't want to waste a lot of 
money on administration when in fact you can put it into 
programs and projects.
    And that has been the goal from the start, is recognition 
of each individual institution's autonomy, but to work together 
to save money on administrative oversight, but to make sure 
everybody can participate meaningfully in their own decision-
making process.
    Mr. Underwood. I know there has been a lot of attention 
given to making comparisons to the Land Grant institutions. Of 
course Land Grant institutions have at least 100 years history 
on Sea Grant institutions, so it is very difficult to try to 
make up that kind of time.
    And of course, part of it is historically the Land Grant 
institutions were responding to what we always thought was the 
heartland of America. And now that we are all living by the 
coasts, now the sense of heartland has shifted somewhat.
    Does anyone any kind of comments as to how we can just get 
the country to understand this in a more comparable framework?
    You've got 15 seconds.
    [Laughter.]
    Dr. Evans. I will take a quick crack at it.
    I think actually Sea Grant does a pretty good job or has 
been doing a pretty good job at getting that message out. Part 
of the extension and education program that they put together 
in many of the programs really puts a lot of effort on raising 
people's awareness of the importance of the coast. A lot of the 
statistics that were cited at this hearing today about coastal 
development, coastal population, the importance of coastal 
economy, the effect of ports, I think is becoming more and more 
widely appreciated.
    And so I think that it is not so much a matter of battle; I 
think it is a matter of education. And I think that our 
collective awareness is really growing toward the importance of 
the coasts.
    You see coastal programs growing in a variety of ways 
inside NOAA, Sea Grant among them. But I think the emphasis has 
begun to--I think the recognition is coming.
    Mr. Underwood. Well, then if that is really the venue, if 
education is really the venue for this, then certainly I think 
the attention given to extension agents and the outreach given 
at that level is very critical.
    Dr. Evans. I agree.
    Mr. Underwood. Thank you.
    Mr. Gilchrest. Thank you, Mr. Underwood.
    Mr. Faleomavaega, follow-up questions?
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    I am still fuzzy on my previous question in understanding 
exactly the process and the procedure and how a university 
becomes a Sea Grant institution.
    Mr. Gilchrest. We could go to lunch and clear that up, 
probably.
    [Laughter.]
    Mr. Faleomavaega. We could go to Chestertown and do that, 
Mr. Chairman.
    [Laughter.]
    Mr. Faleomavaega. I would like to offer this as another 
possible area for legislation that is now pending as part of 
our authorization legislation to define it better. Because I am 
wondering that maybe the process becomes somewhat subjective.
    If I were the president of the University of Guam, I would 
be the first person to say that as an institution in the middle 
of the Pacific, with all the marine resources and potential for 
doing fantastic things dealing with the oceans, I would think 
that as an institution, the Department of Commerce or the 
Secretary of Commerce should look at favorably an institution 
that automatically is right there for possible resources and 
study and doing whatever is necessary to bring that institution 
into the fold.
    I am still bothered by the fact, why only 30 institutions?
    And the criteria seems almost impossible, in my hearing. 
When the University of Guam submitted its application, it still 
did not meet that criteria. And I want to know, what is the 
criteria? And if the criteria is such that it is above and 
beyond anybody's ability to meet that requirement, then maybe 
we ought to do it legislatively.
    Can you comment on that, Dr. Evans?
    Dr. Evans. In the Federal Register notice that Dr. Richmond 
referred to, I think there were--I can't remember the number--
but I think there were five very specific criteria that were 
identified for consortia to acquire Sea Grant status. And the 
proposals, to be responsive, have to address each of those 
issues, and there were very specific ways of evaluating those 
issues.
    I honestly don't know them off the top of my head, but I 
would be happy to make that information available to you for 
your consideration as to whether they are appropriate or not.
    Mr. Faleomavaega. Submit them for the record, please.
    Dr. Evans. We will be happy to submit that for the record, 
so that it is part of these proceedings.
    But there are very specific criteria that need to be met by 
any group that wants to become part of the Sea Grant program.
    And those were the criteria that were used by the panel in 
their evaluations, and they refer to them very specifically in 
their letter back to the Secretary, in terms of evaluating that 
Guam proposal in particular.
    Mr. Faleomavaega. And I want to say to Dr. Richmond, I know 
the gentleman from Hawaii is not here, and I am not trying to 
defend the University of Hawaii, whatever administrative 
problems and experiences that you may have had with them, 
especially also the administrators of other colleges, but with 
all due respect, I do not want America Samoa to be part of the 
consortium for the simple reason of the proximity and the 
distance.
    The University of Hawaii has worked very closely with our 
institution for a good number of years, and I intend to make 
that to known to Mr. Peau. And the current president, the new 
president that we now have at the college, is just recently 
working Mr. Peau on a proposed grant for the Sea Grant program.
    But I just Dr. Richmond to know that I don't know who 
signed this consortium here. It is not Dr. Salu Hunkin's 
signature. It is some person; I don't know who it is that 
signed off on this.
    But I definitely am going to make that known to the current 
president.
    But I want to say that another aspect of the Sea Grant 
program, Dr. Evans, I am going to be delivering a paper at the 
end of this month at an ornamental industries conference in 
Florida.
    Mr. Chairman, this is a $6 billion industry--$6 billion 
industry--where, here again, Sea Grant could be a very, very 
valuable resource, not only for study, for research. We have 
clams that sell right now for about $60 to $90 a pop, simply 
because of its beauty. It is blue, and you cannot find it in 
Hawaii, but it is in Samoa.
    And there are many other resources. The ornamental industry 
is such a tremendous potential for those of us who come from 
the islands.
    And I suspect it is probably true even maybe for Maryland. 
Let's go Chestertown.
    [Laughter.]
    Maybe we might do an ornamental farm there for something.
    But I just wanted to share with you that I think there is 
such a tremendous potential.
    Just as it is the reality of the current Sea Grant program, 
I will submit humbly, Mr. Chairman, I am not satisfied, not 
only with the funding, but with the tremendous amount of areas 
that the Sea Grant provides for, I think we are doing a 
tremendous injustice not only to the American people but even 
to the young people of America to see that this program ought 
to be sitting right along our friend's from the Land Grant 
institution, to see where we can carry this.
    So with that, Mr. Chairman, I want to thank the members of 
the panel. And thank you for your leadership in calling this 
hearing. I look forward to working with you and our 
distinguished ranking member to see if we can get a better 
authorization bill.
    And I am sure Dr. Evans will just be happy to support, 
especially the funding aspects of it.
    [Laughter.]
    Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Faleomavaega.
    I am not sure if some of those clams consider themselves 
ornamental.
    [Laughter.]
    Mr. Faleomavaega. Well, we also eat them, Mr. Chairman.
    Mr. Gilchrest. As long as there are enough left in the deep 
blue sea.
    [Laughter.]
    I think there were some sparks here today of insight and 
ingenuity that we will take advantage of and work with you as 
we continue the process. I think just about everybody here said 
``a rising tide floats all boats.'' And I will just add one 
other analogy to Dr. Knatz, I am sure you consider dredging 
will help float more boats.
    [Laughter.]
    That has been an issue back here in Maryland and I hope we 
find some common ground.
    Thank you all very much for traveling, especially you, Dr. 
Richmond. And I hope you enjoy your stay here on the East Coast 
for the time that you are here.
    And we will continue to stay in touch with you as we go 
through the process.
    Thank you all very much.
    The hearing is adjourned.
    [Whereupon, at 12:42 p.m., the Subcommittee was adjourned.]

                                   - 

</pre></body></html>
